12063-00_Covers.qxd   5/5/10   10:05 AM   Page C1




              Office of Inspector General
              U.S. General Services Administration



              Semiannual Report
              to the Congress
              October 1, 2009 – March 31, 2010
12063-00_Covers.qxd   5/5/10   10:05 AM   Page C2




                 GSA’s SIGNIFICANT MANAGEMENT CHALLENGES
                 The Congress requested the Inspectors General of major Federal agencies to report on the most
                 significant management challenges facing their respective agencies. Our strategic planning process
                 commits us to addressing these critical issues. The following table briefly describes the challenges
                 we have identified for GSA and references related work products issued by the GSA OIG and dis-
                 cussed in this semiannual report

                 CHALLENGES                  BRIEF DESCRIPTION OF CHALLENGE                                PAGE

                 ACQUISITION                 GSA’s procurement organization awards and administers 2
                 PROGRAMS                    government-wide contracts worth $100 billion. With
                                             growing programs and shrinking numbers of qualified
                                             acquisition personnel, attention to important fundamentals
                                             such as ensuring competition, meaningful price analysis,
                                             and implementation of statutory and regulatory
                                             compliance-type requirements has diminished.

                 INFORMATION                 Technology applications have increased exponentially          4
                 TECHNOLOGY                  as “E-Gov” is used to better manage operations and
                                             interface with the public, but complex integration and
                                             security issues exist.

                 FINANCIAL                   GSA systems, including its financial system of record         5
                 REPORTING                   (Pegasys),continue to have deficiencies in interoperability
                                             and interfaces. As a consequence, GSA management
                                             continues to rely heavily on manual workarounds and
                                             significant adjusting entries to prepare the financial
                                             statements and related note disclosures.

                 PROTECTION OF               GSA has a role in protecting the life and safety of           7
                 FEDERAL FACILITIES          employees and public visitors in Federal buildings. The
                 AND PERSONNEL               increased risks from terrorism have greatly expanded the
                                             range of vulnerabilities. A broadly integrated security
                                             program is required.

                 HUMAN CAPITAL               GSA has an aging workforce and is facing significant loss     No
                                             of institutional knowledge due to retirements, including a    Reports
                                             loss of key management staff over the past year. Better       This
                                             recruitment and training programs are needed to develop       Period
                                             the 21st century workforce.

                 FEDERAL                     Faced with an aging, deteriorating inventory, GSA is          8
                 BUILDINGS                   challenged in making the best use of available funds
                 FUND                        to deliver high performance workplaces on schedule
                                             and within budget.
12063-01_FM_rev.qxd   5/5/10   10:06 AM   Page i




                                                             Foreword



                                 I am pleased to provide this report to the people of the United States and their elected
                                 representatives in Congress. The Office of Inspector General (OIG) at GSA has been
                                 working successfully to identify and prevent waste, fraud, and abuse in connection with the
                                 programs and operations of GSA. This reporting period, we issued 56 audit reports and
                                 identified over $170 million in funds recommended for better use and questioned costs. We
                                 also made 286 referrals for criminal prosecution, civil litigation, and administrative action—
                                 activities valuable in their own right, as well as for their deterrent effect. In this reporting
                                 period, GSA achieved savings totaling over $702 million from management decisions on
                                 audit findings and from civil settlements and investigative recoveries.

                                 Notable during this reporting period was the $400 million criminal fine imposed upon BAE
                                 Systems, PLC, for alleged false statements and violating the Arms Export Control Act and
                                 International Traffic in Arms Regulations. Almost $14 million in contract fraud settlements
                                 were obtained during this reporting period from other companies.

                                 The Recovery Act provides GSA with $5.5 billion in construction funding. In this reporting
                                 period, we reviewed major construction and high performance “green building” projects,
                                 the Austin Courthouse project, and the UN Plaza project. In addition to oversight reviews,
                                 we provided contract audit support through 37 reports and memoranda on reviews of
                                 contractors’ proposals valued at over $155 million.

                                 During this reporting period, the Senate confirmed Martha Johnson as GSA’s new
                                 Administrator. We look forward to working together to address the need for everyone to
                                 work faster, smarter, and better as GSA meets the demands of its mission and accepts
                                 new challenges. We remain committed to assisting GSA to accomplish its mission with
                                 efficiency, effectiveness, and economy. By their steady record of accomplishment, OIG
                                 employees continue to show a dedication to effective public service of which our nation can
                                 be proud. I commend our employees for their professionalism and performance in
                                 discharging their duties and upholding the law. I also recognize the continued strong
                                 support of Congress, OMB, and employees throughout GSA.



                                 Brian D. Miller
                                 Inspector General
                                 April 30, 2010




                                                                                               October 1, 2009 – March 31, 2010 i
12063-01_FM_rev.qxd   5/5/10   10:06 AM   Page ii
12063-01_FM_rev.qxd   5/5/10   10:06 AM   Page iii




                                                         Table of Contents

                                                                                                                                             Page

                                               Summary of OIG Performance . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .v

                                               Executive Summary . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .vii

                                               OIG Organization Chart . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .xi

                                               OIG Profile . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .1

                                               Management Challenges . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .2

                                                  Acquisition Programs . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .2

                                                  Information Technology . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .4

                                                  Financial Reporting . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .5

                                                  Protection of Federal Facilities and Personnel . . . . . . . . . . . . . . . .7

                                                  Federal Buildings Fund . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .8

                                               American Recovery and Reinvestment Act of 2009 . . . . . . . . . . . . . .9

                                               Other Initiatives . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .11

                                                  FAR Rule for Contract Disclosure . . . . . . . . . . . . . . . . . . . . . . . . .11

                                               Promoting and Protecting Integrity . . . . . . . . . . . . . . . . . . . . . . . . . .12

                                               Governmentwide Policy Activities . . . . . . . . . . . . . . . . . . . . . . . . . . .18

                                               Professional Assistance Services . . . . . . . . . . . . . . . . . . . . . . . . . . .19

                                               Statistical Summary of OIG Accomplishments . . . . . . . . . . . . . . . . .21

                                               Appendices

                                               Appendix I – Significant Audits from Prior Reports . . . . . . . . . . . . . .29

                                               Appendix II – Audit Report Register . . . . . . . . . . . . . . . . . . . . . . . . .34

                                               Appendix III – Audit Reports over 12 Months Old, . . . . . . . . . . . . . .41
                                                 Final Agency Action Pending

                                               Appendix IV – Government Contractor Audit Findings . . . . . . . . . . .44

                                               Appendix V – Audits Without Management Decision . . . . . . . . . . . .45

                                               Appendix VI – Delinquent Debts . . . . . . . . . . . . . . . . . . . . . . . . . . . .47

                                               Appendix VII – Reporting Requirements . . . . . . . . . . . . . . . . . . . . .48

                                               Appendix VIII – OIG Offices and Key Officials . . . . . . . . . . . . . . . . .49


                                                                                                                October 1, 2009 – March 31, 2010 iii
12063-01_FM_rev.qxd   5/5/10   10:06 AM   Page iv
12063-01_FM_rev.qxd   5/5/10   10:06 AM   Page v




                                             Summary of OIG Performance

                                               October 1, 2009 – March 31, 2010

         OIG Accomplishments                   Total financial recommendations                              $170,983,064

                                               These include:

                                               • Recommendations that funds be put to better use            $145,154,250

                                               • Questioned costs                                           $ 25,828,814

                                               Audit reports issued                                                     56

                                               Referrals for criminal prosecution, civil
                                               litigation, & administrative action                                     286

         Results Attained                      Management decisions agreeing with audit
                                               recommendations, civil settlements, and
                                               court-ordered and investigative recoveries                   $702,261,692



                                               Indictments and informations on criminal referrals                       24

                                               Cases accepted for criminal prosecution                                  36

                                               Cases accepted for civil action                                          15

                                               Successful criminal prosecutions                                         36

                                               Civil settlements                                                          6

                                               Contractors/individuals suspended and debarred                           62

                                               Employee actions taken on administrative referrals                       28
                                               involving GSA employees




                                                                                             October 1, 2009 – March 31, 2010 v
12063-01_FM_rev.qxd   5/5/10   10:06 AM   Page vi
12063-01_FM_rev.qxd   5/5/10   10:06 AM   Page vii




                                                     Executive Summary



         During this semiannual period, the OIG continued to           Need for Stronger Guidance for Acquisition
         direct its auditing and investigative resources toward        Management Support Contracting. GSA’s Federal
         what it has identified as the major management                Acquisition Service (FAS) issued three Blanket
         challenges facing GSA. The OIG conducted audit                Purchase Agreements (BPAs) to obtain acquisition
         reviews and investigations to ensure the integrity of         management support services from contractors to
         the Agency’s financial statements, programs, and              assist in contracting for Recovery Act projects. Auditors
         operations, and to ensure that the taxpayers’ interests       found that broadly-defined requirements in the BPAs’
         were being protected. The OIG also continued to initiate      statements of work create a risk that task orders under
         actions to prevent fraud, waste, and abuse, and to            the BPAs will allow acquisition support contractors to
         promote economy and efficiency throughout GSA.                perform inherently governmental functions, or operate
                                                                       under organizational conflicts of interest. The audit
         The OIG’s resources have been directed specifically           report therefore recommended the addition of more
         toward conducting preaward, financial, and programmatic       specific guidance to several sections of the Acquisition
         audits; management control assessments; contract              Management Support Services Contracting Officer
         reviews; investigations of fraud, abuse, and related          Ordering Guide. The auditors also found that the
         actions by GSA employees and government                       contract file included insufficient documentation of the
         contractors; and litigation support in civil fraud actions,   basis for the decision to award a single BPA with two
         enforcement actions, criminal prosecutions, contract          backups, rather than multiple BPAs (page 2).
         claims, and administrative actions, all in an effort to
         maintain the integrity of GSA programs.                       Millions of Dollars of Potential Losses in Prompt
                                                                       Payment Discounts. Many Multiple Award Schedule
         Management Challenges                                         (MAS) contracts are negotiated with prompt payment
                                                                       discounts, but auditors found in a sample of 43 vendors
         The OIG continued to strive to provide the high level of
                                                                       that 65% did not properly cite the discount terms on their
         quality in reviews and recommendations for which it is
                                                                       invoices, impeding ordering agencies’ ability to benefit
         known, and which it believes necessary in order for GSA
                                                                       from more than $9 million in potential discounts in
         to continue leading the government in contracting and
                                                                       FY 2007 alone from the affected contracts. The audit
         procurement. During this semiannual period, the
                                                                       also discovered that government purchasers do not
         focus has been on acquisition programs, information
                                                                       always include discount terms on order forms as
         technology, financial reporting, protection of federal
                                                                       required, and that some MAS customer agencies
         facilities and personnel, the federal buildings fund, and
                                                                       negotiate away prompt payment discounts in return for
         the American Recovery and Reinvestment Act
                                                                       other concessions. The audit report recommended,
         (Recovery Act). The following are significant audits and
                                                                       among other things, that FAS take a position on
         reviews that identify major issues facing GSA.
                                                                       customer agencies negotiating away discounts; ensure
                                                                       that order forms include discount terms; and seek
         Acquisition Programs
                                                                       appropriate recoveries from MAS vendors who include
         Significant Preaward Reviews and Other Audits. The            inaccurate discount terms on their invoices (page 3).
         OIG’s preaward review program provides information to
         contracting officers (COs) for use in negotiating             Information Technology (IT)
         contracts. This period, the OIG performed preaward
                                                                       Needed Improvements in GSA’s Implementation of
         reviews of 34 contracts with an estimated value of $3.5
                                                                       E2 Travel System. GSA employees manage their official
         billion. We recommended that more than $145 million
                                                                       travel through E2 Solutions, one of the three systems
         of funds be put to better use. During this reporting
                                                                       available to federal agencies under the e-Government
         period, management decisions were made on 55
                                                                       Travel Service initiative. The auditors’ review of the E2
         preaward reports, which recommended that over $259
                                                                       system concluded that GSA’s implementation of E2 has
         million of funds be put to better use. Management
                                                                       not provided the level of scrutiny necessary to ensure
         agreed with 100 percent of the recommended savings
         (page 2).


                                                                                             October 1, 2009 – March 31, 2010 vii
12063-01_FM_rev.qxd   5/5/10   10:06 AM   Page viii




                                                    Executive Summary



      that internal and financial controls adequately mitigate        response to the audit’s preliminary findings, PBS
      operational risks. In addition, employees using E2 are not      regional management rescinded contracting warrants
      satisfied with its performance; it is not user friendly or      for construction project managers and proposed a
      intuitive, and it is not sufficiently accessible to employees   conflict resolution process for disputes between project
      with disabilities (page 5).                                     managers and contracting officials on construction
                                                                      projects (page 8).
      Financial Reporting
      Some Deficiencies in GSA Financial Controls. An                 American Recovery and Reinvestment Act
      independent public accounting firm (IPA) performed an           Pricing Irregularities in Austin Courthouse
      audit of GSA’s FY 2009 financial statements. The                Construction. PBS awarded a contract for construction
      independent audit did not identify any material                 and for design-phase management services for the
      weaknesses relating to GSA’s financial management               Austin Courthouse project without negotiating a price for
      systems, internal controls or financial reporting.              the construction phase of the contract. The contract file
      However, the IPA did note three significant deficiencies,       does not contain the documentation required for an
      relating to controls over (1) budgetary accounts and            unpriced option without justification. The construction
      transactions; (2) accounting and reporting of non-              phase of the contract, which began after the passage of
      cancellable occupancy agreements and (3) financial              the Recovery Act, was funded with Recovery Act
      reporting (page 5).                                             appropriations. The contract was ultimately priced based
                                                                      on the contractor’s own cost estimate, but PBS never
      Protection of Federal Facilities and Personnel                  established that this price was fair and reasonable, as
      Inadequate Security Controls over Sensitive Public              required by the General Services Acquisition Manual.
      Building Information. An audit found that GSA’s                 PBS disagreed with the audit’s findings; the OIG does
      Public Buildings Service (PBS) uses electronic project          not agree with this position and has reiterated the audit’s
      management software applications to manage building             recommendations (page 9).
      projects, but that these information systems do not fall
      under the oversight of PBS’s security program and have          Failure to Develop Project Management Plan for UN
      not been reviewed for compliance with the Federal               Plaza Modernization. The Office of Audits issued an
      Information Security Management Act. The audit also             audit memorandum informing PBS that preliminary audit
      found that regional PBS offices often failed to protect         work had revealed a failure to develop an approved
      building information accessible through public web              project management plan for the modernization of
      pages. The auditors recommended that PBS work                   the 50 United Nations Plaza Federal Building in San
      under the information security program of the GSA               Francisco. The project should not have advanced past
      Office of the Chief Information Officer to ensure               the planning stage without a project plan. PBS
      appropriate controls over sensitive building information        developed a project plan upon notification of this
      (page 7).                                                       deficiency (page 10).

      Federal Buildings Fund                                          Other Recovery Act Activities. The GSA OIG has also
                                                                      performed other work related to Recovery Act programs
      Separation of Duties Deficiencies Remedied in U.S.
                                                                      and contracts. As of the end of this reporting period, the
      Courthouse Construction Project. In a review of
                                                                      Office of Audits has issued 37 reports and memoranda
      the construction of a federal courthouse, auditors
                                                                      regarding reviews of contractors’ proposals, valued at a
      determined that a PBS employee in charge of project
                                                                      total of over $155 million. As part of this effort, the Office
      management had also modified contracts without
                                                                      of Audits coordinated with the Defense Contract Audit
      additional review, contrary to GSA’s separation of duties
                                                                      Agency (DCAA) to perform 27 audits of proposals
      internal control processes. The auditors also found that
                                                                      related to a major GSA construction project. The total
      contract files contained inadequate documentation
                                                                      proposed dollars audited in cooperation with DCAA
      regarding the scope and cost of change orders. In
                                                                      were over $126 million (page 10).



       viii Semiannual Report to the Congress
12063-01_FM_rev.qxd   5/5/10   10:06 AM    Page ix




                                                       Executive Summary



         Other Initiatives                                                compliance program and violating the Arms Export
         FAR Contractor Disclosure Program. The GSA OIG                   Control Act and International Traffic in Arms Regulations.
         continues to process, evaluate, and act on the disclosures       It was sentenced to three years of probation and a $400
         made by contractors pursuant to the FAR rule requiring a         million fine (page 12). Three U.S. Army Sergeants were
         contractor code of business ethics and conduct, an               sentenced for a scheme to obtain surplus government
         internal control system, and disclosure to the government        computers and sell them for the defendants’ personal
         of certain violations of criminal law, violations of the civil   profit. The first received 18 months in prison and
         False Claims Act, and significant overpayments. During           $163,000 in restitution, followed by 3 years of supervised
         this reporting period, the GSA OIG received four                 release; the second was sentenced to 6 months of home
         disclosures. These disclosures included timecard                 confinement, 3 years of probation, 200 hours of
         mischarges, compliance failures, misuse of task order            community service, and $10,187 in restitution; and the
         funds, and overbilling errors (page 11).                         third received 2 months of home confinement, 2 years of
                                                                          probation, 100 hours of community service, and $12,124
                                                                          in restitution (page 14). A former employee of an
         Promoting and Protecting Integrity                               Arlington, Texas auto dealership, who stole an engine
         GSA is responsible for providing working space for one           from a GSA vehicle and replaced the engine with a
         million Federal employees. The Agency also manages               damaged one, was sentenced to 2 years of probation, a
         the transfer and disposal of excess and surplus real and         $1,000 fine, and $9,033 in restitution (page 14). A
         personal property, and operates a government-wide                Canadian citizen was sentenced to 4 years in prison and
         service and supply system. To meet the needs of                  3 years of supervised release for conspiring with his
         customer agencies, GSA contracts for billions of dollars         brother, a federal employee, to steal nearly $3 million in
         worth of equipment, supplies, materials, and services            federal surplus property, most of which they transported
         each year. When systemic issues are identified during            to Canada (page 14). A GSA contractor employee was
         investigations, they are shared with GSA management              sentenced to 3 years of supervised release, 300 hours
         for appropriate corrective actions. During this period,          of community service, and $15,000 of restitution for
         criminal, civil and other monetary recoveries totaled            submitting through the mails false concrete test results
         almost $415 million.                                             in conjunction with government construction projects
                                                                          (page 15).
         Significant Civil Actions and Criminal Investigations
                                                                          False Statements and Obstruction of Justice. A
         Civil Recoveries. Itochu Corporation of Japan and its            former GSA Chief of Staff was sentenced to 1 year of
         subsidiary Itochu International, Inc., signed a $6.75            incarceration and 2 years of supervised release for false
         million settlement of a False Claims Act complaint that          statements and obstruction of justice during a GSA OIG
         the companies had imported and sold defective fiber for          investigation into a golf trip to Scotland with a prominent
         use in bullet-proof vests for law enforcement personnel          lobbyist that included several government employees
         (page 12). Johnson Controls, Inc., entered a $1 million          (page 13). The owner of Hose-Mart, Inc., was sentenced
         agreement to settle claims that it had submitted or              to 6 months of probation and an $1,800 fine for false
         caused to be submitted false statements in connection            statements made during a federal investigation of
         with federal construction contracts (page 13). The               another contractor (page 13).
         president of Systems Integration Management, Inc.
         (SIM), was ordered by a court to pay $525,000 in a False         Fleet and Travel Card Abuse. The GSA OIG’s ongoing
         Claims Act suit over SIM’s submission of inflated and            investigative efforts into Voyager Fleet Charge Card
         fraudulent invoices (page 13).                                   abuse yielded 11 arrests, 12 indictments, and 11 guilty
                                                                          pleas during this reporting period. Among these, current
         Theft and Fraud. BAE Systems, PLC pled guilty to                 and former employees of the Department of Energy,
         conspiring to defraud the United States by making false          AMTRAK, a civilian contractor, the Department of Veterans
         statements about its Foreign Corrupt Practices Act               Affairs, the Office of Indian Child Welfare for the Ponca



                                                                                                 October 1, 2009 – March 31, 2010 ix
12063-01_FM_rev.qxd   5/5/10   10:06 AM   Page x




                                                   Executive Summary



      Tribe, and the Army National Guard were sentenced to a        Integrity Awareness – Highlights
      total of 4 years and 7 months of incarceration, 6 years of    The OIG presents Integrity Awareness Briefings
      supervised release, 14 years of probation, and $228,254       nationwide to educate GSA employees on their
      in restitution, as well as community service and fines, for   responsibilities for the prevention of fraud and abuse
      unauthorized purchases of fuel, food, tobacco products,       and to reinforce employees’ roles in helping to ensure
      and beverages using government charge cards (page             the integrity of Agency operations. This period, we
      16). In addition, a GSA Leasing Specialist was demoted        presented 34 briefings attended by 467 regional and
      from a GS-11 to a GS-9 and her travel card privileges         Central Office employees (page 17).
      were terminated after it was determined that she used a
      government travel card to pay for purchases and travel        OIG Hotline – Highlights
      unrelated to her work (page 15).
                                                                    During this reporting period, we received 1,258 Hotline
                                                                    contacts. On the basis of these contacts, 248 Hotline
      WPA Artwork. A coordinated initiative of the GSA OIG,
                                                                    cases were initiated. In 95 of these cases, referrals were
      the Department of Justice, and the Federal Bureau
                                                                    made to GSA program officials for review and action as
      of Investigation recovered 17 historic works of art
                                                                    appropriate; 47 were referred to other Federal agencies
      produced through the Works Progress Administration
                                                                    for follow up; 92 were referred for OIG criminal/civil
      during this reporting period. These included the painting
                                                                    investigations or audits; and 14 did not warrant further
      Swift’s Packing House, valued at $800. GSA also
                                                                    review (page 17).
      entered an agreement to lend Simplicity, valued at
      $40,000, to the St. Louis Art Museum. The GSA OIG
      recovered the painting after learning of its scheduled        Summary of Results
      unauthorized auction. GSA also entered into an                The OIG made over $145 million in financial
      agreement to lend 15 works valued at over $19,000 to          recommendations to better use government funds;
      an Iowa art museum, after OIG investigators learned           made 286 referrals for criminal prosecution, civil
      that the museum, which had lost its record of an original     litigation, and administrative actions; reviewed
      1935 agreement lending it the works, was about to sell        numerous legislative and regulatory actions; issued 40
      them at auction (page 15).                                    subpoenas; and received 1,258 Hotline contacts. This
                                                                    period, we achieved savings from management
      Suspension and Debarment – Highlights                         decisions on financial recommendations, civil
      During this reporting period, the OIG made 106 referrals      settlements, and investigative recoveries totaling over
      for consideration of suspension/debarment to the GSA          $702 million.
      Office of Acquisition Policy. GSA issued 62 suspension
      and debarment actions based on current and previous
      OIG referrals (page 17).




       x Semiannual Report to the Congress
12063-01_FM_rev.qxd   5/5/10   10:06 AM   Page xi




                                                    OIG Organization Chart


                                                        Inspector General
                                                          Brian D. Miller
                                                     Deputy Inspector General
                                                        Robert C. Erickson

                      Office of Counsel to the IG                                Office of Internal Evaluation & Analysis
                              Richard Levi                                                     Richard Parker
                           Counsel to the IG                                                  Director (Acting)
                      Office of Communications &
                         Congressional Affairs                                         Office of Forensic Auditing
                               Dave Farley                                                 Patricia D. Sheehan
                                 Director                                                         Director


              Office of Administration                     Office of Audits                     Office of Investigations
               Carolyn Presley-Doss                      Theodore R. Stehney                        Gregory G. Rowe
               AIG for Administration                      AIG for Auditing                      AIG for Investigations


                Budget, Planning, and                       Audit Operations Staff
                                                                                                    Investigations Operations
                Financial Management                                                                         Division
                       Division                               Administration &
                                                             Data Systems Staff
                  Human Resources                                                                        Regional Offices
                     Division                                                                            Washington, DC
                                                            Special Projects Office
                                                                                                           New York
                                                                                                            Atlanta
                Information Technology                          Information                                 Chicago
                                                           Technology Audit Office                        Kansas City
                       Division
                                                                                                           Fort Worth
                                                                                                         San Francisco
                                                                Real Property                               Auburn
                        Facilities                               Audit Office
                         Branch
                                                           Finance & Administrative
                                                                                                             Sub-Offices
                                                                 Audit Office
                        Contracts                                                                              Boston
                         Branch                                                                                Denver
                                                             Acquisition Programs                            Los Angeles
                                                                 Audit Office                                   Miami
                                                                                                             Philadelphia
                                                             Contract Audit Office

                                                              Field Audit Offices
                                                                Washington, DC
                                                                  New York
                                                                 Philadelphia
                                                                   Atlanta
                                                                   Chicago
                                                                 Kansas City
                                                                  Fort Worth
                                                                San Francisco


                                                                                            October 1, 2009 – March 31, 2010 xi
12063-01_FM_rev.qxd   5/5/10   10:06 AM   Page xii




      (This page was intentionally left blank.)


       xii Semiannual Report to the Congress
12063-02_SAR_rev.qxd   5/5/10   10:07 AM   Page 1




                                                             OIG Profile



         Organization                                                   • The Office of Internal Evaluation and Analysis, a
                                                                          multidisciplinary staff that conducts operational
         The GSA OIG was established on October 1, 1978 as
                                                                          assessments of the OIG components and their field
         one of the original 12 OIGs created by the Inspector
                                                                          offices; performs special projects for the Inspector
         General Act of 1978. The OIG’s five components work
                                                                          General, including research and analysis; provides
         together to perform the missions mandated by
                                                                          advice to the Inspector General; and conducts reviews
         Congress.
                                                                          and investigations internal to the OIG. It contains the
                                                                          Office of Forensic Auditing, an independent team that
         The OIG provides nationwide coverage of GSA
                                                                          combines auditing and investigative techniques to
         programs and activities. Our components include:
                                                                          utilize innovative detection strategies, assess
                                                                          fraudulent situations, and produce evidence meeting
         • The Office of Audits, an evaluative organization staffed
                                                                          the standard of proof required by criminal courts.
           with auditors and analysts who provide comprehensive
           coverage of GSA operations through program reviews,          • The Office of Administration, a professional staff that
           assessments of management controls, and financial,             provides information technology, budgetary,
           regulatory, and system audits. The office conducts             administrative, personnel, and communications
           external reviews in support of GSA contracting officials       support and services to all OIG offices.
           to carry out their procurement responsibilities and obtain
           best value for Federal customers and the American
                                                                        Office Locations
           taxpayers. The office also provides other services to
           assist management in evaluating and improving their          The OIG is headquartered in Washington, DC, at GSA’s
           programs.                                                    Central Office Building. Field offices are maintained in
                                                                        Atlanta, Boston, Chicago, Denver, Fort Worth, Kansas
         • The Office of Investigations, an investigative               City, Los Angeles, Miami, New York, Philadelphia, San
           organization that conducts a nationwide program to           Francisco, Auburn, WA, and Washington, DC. (A contact
           prevent, detect, and investigate illegal and/or improper     list of OIG offices and key officials is provided in
           activities involving GSA programs, operations, and           Appendix VIII.)
           personnel.
                                                                        Staffing and Budget
         • The Office of Counsel, an in-house legal staff that
                                                                        As of March 31, 2010, our on-board staffing level was 320
           provides legal advice and assistance to all OIG
                                                                        employees. The OIG’s FY 2010 budget is $61 million,
           components, represents the OIG in litigation arising
                                                                        which includes $450,000 in reimbursable authority and
           out of or affecting OIG operations, and manages the
                                                                        $1.55 million in funds appropriated under the American
           OIG legislative and regulatory review.
                                                                        Recovery and Reinvestment Act of 2009.




                                                                                              October 1, 2009 – March 31, 2010 1
12063-02_SAR_rev.qxd   5/5/10   10:07 AM     Page 2




                                                Management Challenges



      Each year since 1998, we have identified and shared with Congress and senior GSA management what we believe to
      be the major challenges facing the Agency. (The current list is summarized on the front inside cover.) This period we
      continued our work in addressing these challenges, making recommendations, and working with management to
      improve Agency operations. The following sections highlight our activities in these areas.


      Acquisition Programs                                         under GSA’s procurement programs. Past history has
                                                                   shown that for every dollar invested in preaward contract
      GSA provides Federal agencies with products and              reviews, at least $10 in lower prices or more favorable
      services valued in the billions of dollars through various   terms and conditions are attained for the benefit of the
      types of contracts. We conduct reviews of these activities   government and the taxpayer. The Office of Management
      to ensure that the taxpayers’ interests are protected.       and Budget (OMB) has long recognized the increasing
                                                                   dollar value of GSA’s contract activities and our limited
      Significant Preaward Reviews and Other Audits                resources in providing commensurate audit coverage.
      The OIG’s preaward review program provides                   Since 2004, through the Federal Acquisition Service
      information to contracting officers for use in negotiating   (FAS) contract program revenue, OMB officials have
      contracts. The pre-decisional, advisory nature of            provided us additional financial support to increase our
      preaward reviews distinguishes them from other audits.       work in this area. These funds enabled us to hire
      This program provides vital and current information to       additional staff to support expanded contract review
      the contracting officers, enabling them to significantly     activities including, primarily, an increase in preaward
      improve the government’s negotiating position and to         contract reviews, as well as more contract performance
      realize millions of dollars in savings on negotiated         reviews that evaluate contractors’ compliance with pricing,
      contracts. This period, the OIG performed preaward           billing, contract terms, and periodic program evaluations
      reviews of 34 contracts with an estimated value of $3.5      to assess the efficiency, economy, and effectiveness of
      billion. We recommended that more than $145 million of       contracting activities. Starting in FY 2010, OMB has
      funds be put to better use. Three of the more significant    provided this additional support in direct appropriations to
      Multiple Award Schedule (MAS) contracts we reviewed          the OIG to provide continued service in this area. We will
      had projected government-wide sales totaling more than       continue to work closely with FAS to develop preaward
      $318 million.The review findings recommended that $48        and contract performance assessment programs that
      million in funds be put to better use. The reviews           strengthen government-wide contracts and provide
      disclosed that these vendors offered prices and              value for the taxpayers. During this reporting period,
      discounts to GSA that were not as favorable as the           management decisions were made on 55 of the preaward
      prices and discounts other customers received. For           reports, which recommended that over $259 million of
      example, one vendor for products and services                funds be put to better use. Management agreed with 100
      overstated various components of its cost build-up rates,    percent of the recommended savings.
      including its material costs and its overhead and G&A
      rates. Another vendor for professional services and          Review of the Federal Acquisition Service Blanket
      software maintenance did not disclose that it                Purchase Agreements for Acquisition Management
      granted lower prices to non-MAS federal customers and        Support Services
      commercial customers. Finally, an information                Report A090018/Q/A/P10002, dated March 30, 2010
      technology vendor provided incomplete pricing
      information; however, through an analysis of the             This review found that GSA’s FAS needs to strengthen
      vendor’s labor charges and financial information, we         its guidance regarding the use of Blanket Purchase
      were able to advise the contracting officer to seek          Agreements (BPAs) for Acquisition Management Support
      significant reductions to the offered labor rates.           (AMS) services to reduce the risk that contractors will
                                                                   perform inherently governmental work and to avoid
      As of March 31, 2010, there were 18,275 MAS contracts        conflicts of interest. GSA anticipates undertaking a number
      with over $20 billion in business for the six-month period   of construction and energy-related projects in response to


       2 Semiannual Report to the Congress
12063-02_SAR_rev.qxd   5/5/10   10:07 AM   Page 3




                                                    Management Challenges



         Acquisition Programs (continued)

         the American Recovery and Reinvestment Act of 2009                 Request for Quotation and prescribed in FAR
         (Recovery Act). In March 2009, FAS awarded three BPAs              Subpart 8.405-2(b);
         to obtain AMS services for these projects under its Mission      o Adding more specific guidance in Section 2.4 of the
         Oriented Business Integrated Services MAS.These BPAs               AMS Services Contracting Officer Ordering Guide to
         have an estimated value of $100 million over five years.           aid ordering activities on determining the appropriate
         The OIG initiated a review to (1) evaluate the controls FAS        ratios of contractor employees to government
         implemented over the use of the BPAs, and (2) determine            employees when acquiring AMS services;
         if FAS planned and executed the award of the BPAs in             o Clarifying in Section 4.3 of the AMS Services
         accordance with Federal Acquisition Regulation (FAR) and           Contracting Officer Ordering Guide ordering activity
         Recovery Act requirements.                                         requirements defined in FAR Subpart 8.405-2(d).
                                                                            Specifically, the ordering guide should indicate that
         We believe FAS needs to clarify key steps regarding use            the ordering activity contracting officer is responsible
         of these BPAs. Specifically, ordering activities need to           for making a written determination that the total price
         develop a statement of work (SOW) at the order level in            of the task order is fair and reasonable based on an
         lieu of using the requirements listed in the BPAs. Broadly         evaluation of the contractor’s proposal; and
         defined requirements heighten the risk that contractors          o Considering the addition of references to FAR
         will perform inherently governmental work and impede               Subpart 7.503, which addresses inherently
         the government’s ability to adequately oversee contractor          governmental work, and FAR Subpart 9.5, which
         performance. In addition, FAS should mandate that                  addresses organizational conflicts of interest.
         those individuals involved in ordering activities attend
         workshops on the use of BPAs with attention given to           • Develop and implement a plan to monitor the
         assessing the type of work that should be done by                effectiveness of the BPA ordering guidance and
         government resources. Such training would allow                  improve the guidance as necessary.
         ordering activities to better monitor the quality of task
         order deliverables and overall contractor performance. It      • Ensure that the BPA file contains sufficient explanation
         would also help ensure that contractors do not perform           of how the shift in acquisition strategy will save time
         inherently governmental work.                                    and contracting resources.

         We also found that, while FAS generally followed FAR           • Ensure that future BPA awards reflect consideration of
         requirements in planning and executing the BPA                   the factors listed in FAR Subpart 8.405-3(a)(1) when
         acquisition, it did not consider these requirements when         determining the number of BPAs to establish for BPA
         determining the number of BPAs to establish. We noted            awards.
         that the contract file lacked sufficient detail to support
         management’s rationale for shifting the acquisition strategy   The FAS Commissioner partially agreed with the report
         from awarding multiple BPAs to awarding a single BPA with      findings and recommendations.
         two backups. As a result, we could not be assured that this
         strategy was appropriate for this acquisition.                 Review of MAS Vendors’ Invoicing Practices
                                                                        Relative to Prompt-Payment Discounts
         We recommended that the Commissioner of the Federal            Report Number A090026/Q/7/P10001, dated March 15, 2010
         Acquisition Service:
                                                                        This review found that the Government could be at risk of
         • Supplement the BPA ordering guidance by:                     losing millions of dollars annually in prompt-payment
                                                                        discounts (PPDs). PPDs allow purchasers the opportunity
           o Adding to Section 2.1 of the AMS Services                  to realize additional savings and reduce their costs in
             Contracting Officer Ordering Guide the requirement         exchange for early payments to vendors. GSA negotiates
             to develop a statement of work at the order level, as      PPD terms for many of its MAS contracts because PPDs
             outlined in the Sample Acquisition Management              represent significant potential savings to GSA MAS

                                                                                               October 1, 2009 – March 31, 2010 3
12063-02_SAR_rev.qxd      5/5/10   10:07 AM   Page 4




                                                  Management Challenges



      Acquisition Programs (continued)

      customers. Historically, the OIG audits of GSA vendors            • Remind all MAS vendors of their contractual
      have noted incorrect PPD terms cited on vendors invoices.           responsibility to include applicable PPD terms on
      However, because the OIG conducts a limited number of               invoices.
      these reviews each year, the extent of this problem was
      unknown.The purpose of this review was to determine the           • Seek recoveries, when economical, advisable, and
      Government’s potential risk exposure for losing PPD                 feasible from MAS vendors who fail to cite contractual
      savings as a result of this practice. We also evaluated             PPD terms on invoices.
      selected GSA internal controls related to PPDs.
                                                                        • Take corrective actions to ensure that the ITSS
      We determined that 65 percent of the 43 vendors in our              software application is corrected to allow entry of
      audit sample did not properly cite their PPDs on their              accurate contractual PPD terms for all applicable MAS
      invoices. These vendors had negotiated PPDs ranging                 vendors.
      from 0.15 to 5.0 percent, but submitted invoices which
      cited “0” percent, “Net 30” or “PAYABLE UPON RECEIPT              • Take appropriate actions to ensure that GSA Forms
      OF INVOICE” as the payment terms instead of the                     300, prepared manually and through the ITSS
      contractually agreed-upon PPD terms. FY 2007 sales for              application2, include applicable PPD terms in
      these 28 vendors exceeded $900 million and the                      accordance with the GSA acquisition manual.
      associated PPD savings at risk exceeded $9 million.The
      1-year potential PPD savings for all vendors under the            • Take appropriate actions to ensure that IOAs are aware
      eight schedules included in our scope exceeded $33                  of PPDs when conducting CAVs.
      million1 based on FY 2007 reported sales.
                                                                        • Ensure that appropriate corrective actions are taken
      Moreover, GSA contracting officials and ordering offices            when IOAs identify MAS vendor invoicing discrepancies
      compound the problem because they do not always                     during their CAVs.
      include PPD terms on Orders for Supplies and Services
      (GSA Forms 300) as required by the GSA acquisition                • Take a formal position as to whether ordering activities
      manual. In addition, GSA Industrial Operation Analysts              can or cannot negotiate away PPDs, and if FAS takes
      (IOAs) who evaluate vendors’ compliance with contract               exception to ordering activities negotiating away PPDs,
      terms and conditions during Contractor Assist Visits                they should take action(s) to ensure that such a
      (CAVs) are not always aware of applicable PPD terms,                practice does not continue.
      and therefore, may not identify vendors who cite
      incorrect payment terms on their invoices.                        The FAS Commissioner mainly agreed with the report
                                                                        findings and recommendations.
      In addition, we found that some MAS customers
      negotiate away PPD terms in exchange for other                    Information Technology
      discount considerations even though the contracts do
                                                                        GSA is in the process of replacing or upgrading a number
      not specifically grant them the authority to do so.
                                                                        of its legacy information systems to improve performance
      We recommended that the Commissioner of the Federal               and take advantage of technological advances. Since GSA
      Acquisition Service:                                              has had difficulty sharing usable data between systems,
                                                                        many of the new IT projects are intended to go beyond
                                                                        automating current business functions and to create real
      1
          The $33 million in potential PPD savings may be slightly      change in the way that GSA does business. However, GSA
          mitigated because the FY 2007 sales may include credit card
          payments for which PPDs are not applicable. Moreover,
                                                                        2   ITSS is an online web-based purchase order system that is
          Government paying offices’ inability to obtain and gather
          required documentation in time to take advantage of the PPD       designed to facilitate the development of delivery and purchase
          could also impact PPD savings.                                    orders within the FAS program.


       4 Semiannual Report to the Congress
12063-02_SAR_rev.qxd   5/5/10    10:07 AM   Page 5




                                                     Management Challenges



         systems development projects have typically experienced          We recommended that GSA’s Chief Financial Officer
         significant schedule delays and cost overruns, the need for      take the necessary actions to improve:
         frequent redesign, and a prolonged period of time in
         development.                                                     • E2 controls by:

         Opportunities Exist to Improve GSA’s                               o Ensuring that relevant costs for GSA’s
         Implementation of the E2 Travel                                      implementation of E2 are identified and tracked;
         Report Number A080180/B/T/F10002, dated March 31, 2010             o Developing specific goals and performance
                                                                              measures for GSA’s implementation of E2 and
         This review disclosed that GSA’s implementation of the               monitoring actual performance compared to
         E2 Solutions (E2) travel management system could be                  expected results;
         improved through better internal control processes and by          o Ensuring that needed components of required
         enhancing system usability and customer satisfaction. E2             assessments are completed;
         is one of three travel management systems provided                 o Working with the GSA Office of the Chief Information
         under the e-Government Travel Service initiative, which              Officer to clarify roles and responsibilities; and
         was launched in April 2002. This on-line travel system             o Gaining assurance that E2 successfully meets
         provides comprehensive electronic travel management                  Joint Financial Management Improvement
         services; from planning and authorization through                    Program/Financial Systems Integration Office
         reimbursement of travel expenditures. Approximately                  requirements.
         36,000 travel vouchers, valued at $28 million, are
         processed through this system each year. E2 functions as         • E2 usability by:
         both a financial management system and a Privacy Act
         system. It contains sensitive but unclassified information         o Coordinating with the E-Gov Travel Program
         including financial data, credit card information, and travel        Management Office to have GSA employee
         transaction amounts, as well as personal identity                    concerns addressed with system modifications;
         information. The objective of our review was to determine          o Promoting training for E2; and
         whether E2 effectively meets GSA’s travel management               o Reconsidering      Section     508 compliance
         goals for an e-Government travel system.                             requirements for the Agency to ensure that
                                                                              employees with disabilities can more easily
         GSA’s implementation of E2 has not provided the level of             complete travel transactions.
         scrutiny necessary to ensure that internal and financial
         controls adequately mitigate operational risks. In addition,     The Chief Financial Officer concurred with the report
         targeted goals and performance measures necessary to             findings and recommendations.
         comprehensively assess how well E2 meets GSA’s travel
         management needs are not yet in place. Specifically, GSA         Financial Reporting
         needs to capture a more complete picture of the costs            GSA systems, including its financial system of record
         incurred with the implementation of the E2 system including      (Pegasys), continue to have deficiencies in interoperability
         the multiple contracts used to facilitate E2 operations. Also,   and interfaces. As a consequence, GSA management
         additional oversight and control points are needed in            continues to rely heavily on manual workarounds and
         relation to the obligation and disbursement of funds.            significant adjusting entries to prepare the financial
                                                                          statements and related note disclosures.
         Our review also found customer satisfaction concerns
         that need to be resolved. Employees do not consider E2           Audit of the General Services Administration’s
         to be user friendly or intuitive. In particular, management      Fiscal Year 2009 Financial Statements
         needs to reexamine the system to ensure that people              Report Number A090062/B/F/F10001, dated January 8, 2010
         with disabilities have appropriate access to maneuver
         through the system and complete online official travel           GSA’s Financial Statement Audit was performed by an
         transactions as required.                                        independent public accounting firm (IPA), with oversight,

                                                                                                  October 1, 2009 – March 31, 2010 5
12063-02_SAR_rev.qxd   5/5/10   10:07 AM     Page 6




                                                Management Challenges



      Financial Reporting (continued)

      support work, and guidance provided by the OIG.The firm         delivery and perform periodic reviews of cost transfers
      issued an unqualified opinion on the balance sheets of          and outstanding unfilled customer orders.
      GSA’s major Funds as well as their related consolidated
      and individual statements of net cost, changes in net          Accounting and Reporting of Non-cancellable
      position, and the combined and individual statements of        Occupancy Agreements
      budgetary resources for the fiscal year ended September        The IPA noted that GSA needs to improve controls over
      30, 2009.                                                      how it accounts for and discloses its non-cancellable
                                                                     occupancy agreements. Adequate controls help ensure
      The IPA did not identify any material weaknesses relating      that rental revenue for these types of arrangements is
      to the financial management systems, internal controls or      properly recorded, summarized, and disclosed in the
      financial reporting. However, the IPA did note three           financial statements.These control deficiencies resulted
      significant deficiencies relating to controls over: (1)        in GSA understating its assets by approximately $27
      budgetary accounts and transactions (2) accounting and         million in fiscal year 2009 and omitting future disclosures
      reporting of non-cancellable occupancy agreements and          by nearly $3.6 billion.
      (3) financial reporting.
                                                                     The IPA made the following recommendations:
      Budgetary Accounts and Transactions
      The IPA determined that undelivered orders were not            • Develop policies and procedures to evaluate the
      properly monitored nor were they always recorded                 accounting and disclosure requirements of all non-
      accurately or timely. In some instances, they were not           cancellable occupancy agreements at the inception of
      recorded at all. Also, unfilled customer orders were not         each agreement; and
      being cancelled in a timely manner. In addition, GSA’s
                                                                     • Establish policies and procedures requiring a thorough
      financial management system lacks the appropriate
                                                                       review of all the business policies periodically to
      posting models to account for recoveries of prior years’
                                                                       determine the changes in the business operations.
      obligations, requiring extensive manual reviews and
      adjustments. These issues caused GSA to incorrectly
                                                                     Financial Reporting
      record recovery of prior years’ obligations for undelivered
                                                                     The IPA noted that GSA has a large volume of worksheet
      orders thereby overstating these recoveries by                 adjustments which take place outside the financial
      approximately $29 million.                                     management system and associated control environment.
                                                                     This increases the risk of errors and potential misreporting
      The IPA made the following recommendations:                    of financial information.
      • Evaluate the design and implementation of a system           The IPA also determined that GSA did not have adequate
        interface between the contracting system and the             controls related to system access and segregation of
        financial management system of record;                       responsibilities. In addition, GSA had issues with system
                                                                     change management.These conditions could affect GSA’s
      • Perform procedures to ensure all obligations are             ability to: (1) prevent and detect unauthorized changes to
        captured and accurately recorded in the financial            financial information, (2) control electronic access to
        management system;                                           sensitive information, and (3) protect its information
                                                                     resources.
      • Provide additional training to reinforce existing policies
        and procedures; and                                          The IPA made the following recommendations:

      • Improve communications with GSA’s procurement                • Implement a process to reduce the number of worksheet
        operations, regions and Services to better facilitate          adjustments by utilizing the functionalities of the financial
        response times by regions for award acceptance and             management system of record to perform complete
                                                                       budgetary transaction processing and financial reporting;

       6 Semiannual Report to the Congress
12063-02_SAR_rev.qxd   5/5/10   10:07 AM   Page 7




                                                    Management Challenges



         Financial Reporting (continued)
         • Utilize the Office of the Chief Financial Officer to serve   visiting public, and government facilities is a priority, PBS
           as the primary coordinator of the involvement of             must balance security concerns with the need to
           Regional and Program areas;                                  make building-related information accessible to
                                                                        those authorized to conduct government business.
         • Implement an integrated financial management system          Consequently, it is imperative that there are effective
           for use by program offices to promote consistency and        controls in the systems containing this type of data. The
           reliability of financial information;                        objective of our review was to determine if PBS had
                                                                        implemented managerial, physical, and technical
         • Develop and implement a process to review and                controls to mitigate the risks inherent to sensitive but
           document the review of audit logs related to financial       unclassified building information in online systems.
           system access and processing;
                                                                        Despite the fact that PBS project teams use electronic
         • Ensure policies to approve and remove access are             project management (e-PM) software applications and
           consistently adhered to across information systems;          groupware, such as intranet websites to electronically
                                                                        share project data with contractors, PBS has not
         • Maintain a unified updated listing of all of the roles for   included these systems under the purview of its
           the general ledger and the specific rights and privileges    security program or ensured their compliance with
           assigned to a user;                                          Federal Information Security Management Act (FISMA)
                                                                        requirements. This occurs because many of these
         • Ensure policies to recertify users are consistently          systems do not fall under the purview of either the GSA
           adhered to across information systems; and                   Office of the Chief Information Officer (OCIO) or the PBS
                                                                        OCIO. Further, the current contracts with e-PM providers
         • Ensure changes for systems are documented so that            do not specifically enforce information technology
           evidence of authorization is maintained for changes,         security requirements, data archival requirements or
           testing of changes and approval for change                   provide for testing rights.1 PBS also needs to address
           implementation.                                              controls over sensitive but unclassified data shared on
                                                                        its regional web pages. We noted multiple instances of
         Protection of Federal Facilities                               inadequately protected information on these sites
         and Personnel                                                  including building plans with secure functions, a report
         GSA has a role in protecting the life and safety of            on the structural analysis of a Federal building, links to
         employees and public visitors in Federal buildings. The        the Customer Profile System, and banking information
         increased risks from terrorism have greatly expanded           for contractors.
         the range of vulnerabilities. A broadly integrated security
         program is required.                                           Overall, PBS needs to place a greater emphasis on
                                                                        security over its sensitive building information in online
         Audit of PBS’s Controls over Security of Building              environments. In particular, PBS needs to develop and
         Information in Online Environments                             implement a security strategy for existing e-PM
                                                                        applications and any that may be employed in the future.
         Report A070216/P/R/R10003, dated March 31, 2010
                                                                        PBS also needs to conduct more security awareness
                                                                        training to raise the level of attention to online data
         This review found that GSA’s Public Buildings Service          security within the organization.
         (PBS) needs to improve access controls to sensitive
         building information in certain online environments.
         Unrestricted access to information such as construction        1
                                                                            Many of these security concerns appear to be addressed in the
         documents and building designs pose a vulnerability that           contract for the new PBS enterprise-side e-PM system; however,
         could be exploited by terrorists or other criminal                 data remains vulnerable until the new system is successfully
         elements. While protecting Federal employees, the                  implemented.


                                                                                                    October 1, 2009 – March 31, 2010 7
12063-02_SAR_rev.qxd    5/5/10    10:07 AM    Page 8




                                                  Management Challenges



      Protection of Federal Facilities (continued)

      We recommended that the Commissioner of the Public                  monitoring and overseeing these projects should not also
      Buildings Service:                                                  have the authority to modify a contract without additional
                                                                          review. We determined that the construction project
      • Work within the framework of the GSA OCIO security                manager who monitored and oversaw the Cape
        program to develop and implement a security strategy              Girardeau project also approved two change orders
        for e-PM applications.                                            even though other contracting officials refused to do so.
                                                                          As a result, separation of duties, one of the key concepts
      • Develop and conduct additional security awareness                 of internal control processes for the prevention of fraud
        training for project management and contracting                   and errors, was violated. Also, executing these change
        personnel, especially those with significant security             orders could constitute a conflict of interest on the part
        responsibilities. Include a focus on requirements for             of the project manager. It raises questions as to whether
        extranet based e-PM applications where appropriate, a             the project manager was more concerned with meeting
        review of PBS sensitive but unclassified policy, and              deadlines as opposed to protecting the taxpayers’
        instruction on the protection of sensitive but unclassified       interests.
        data in PBS groupware/intranet environments.
                                                                          Additionally, we determined that the contract change
      The PBS Commissioner generally concurred with the                   order files were not properly documented, as required by
      report findings and recommendations                                 the Federal Acquisition Regulation and the General
                                                                          Services Acquisition Manual. Our review found that the
      Federal Buildings Fund                                              file documentation oftentimes did not adequately explain
                                                                          the actions taken by PBS personnel to establish the
      As the landlord for the civilian Federal government, GSA
                                                                          final negotiated change order amount. Specifically,
      is being challenged to provide quality space to agencies
                                                                          contractor’s proposals did not always include detailed
      using an aging, deteriorating inventory of buildings. GSA
                                                                          breakdowns of the individual costs; referenced drawings
      needs a comprehensive strategy to enable an evaluation
                                                                          and specifications were sometimes not included in the
      of its building projects nationwide to make the best use
                                                                          change order file; work items were sometimes deleted or
      of available funds to deliver high performance                      added to the scope of work without explanation; and
      workplaces on schedule and within budget.                           Government estimates did not address all change order
                                                                          costs. Compliance with appropriate regulations will
      Limited Review of the Contract Administration of                    ensure that contract files are adequately documented.
      the U.S. Courthouse Project in Cape Girardeau,
      Missouri                                                            In response to our preliminary findings, Heartland
      Report Number A080186/P/6/R10002, dated March 17, 2010              Regional PBS management agreed that project managers
                                                                          should not have contracting authority and therefore,
      This review disclosed significant internal control                  advised us that they were taking actions to rescind
      weaknesses related to contract administration at the                contracting warrants for construction project managers as
      Rush H. Limbaugh, Sr., United States Courthouse in                  well as Contracting Officer Representatives. In addition,
      Cape Girardeau, Missouri. The objective of the review               PBS management has suggested a conflict resolution
      was to determine if the contract was administered in                process for any disagreements between construction
      accordance with applicable GSA procedures and                       project management and contracting officials. Further,
      regulations. Our review focused on change orders                    PBS management informed us that it is implementing
      issued under the contract which impacted the timeliness             training for project teams regarding file documentation
      and associated construction costs of the project.                   requirements and is going to have Branch Chiefs review
                                                                          files to ensure that the files are documented properly.
      The review identified control issues related to separation
      of duties and conflict of interest. As it relates to construction   Accordingly, because the Heartland Regional PBS
      projects, PBS personnel who are responsible for                     management had already taken appropriate action to

       8 Semiannual Report to the Congress
12063-02_SAR_rev.qxd   5/5/10   10:07 AM    Page 9




                                                     Management Challenges



         Federal Buildings Fund (continued)

         address all of the deficiencies identified during our review,   Act funds became available, the agency selected this
         formal audit recommendations were not warranted.                project’s construction phase to receive funding under the
                                                                         Recovery Act. When the original request for proposal
         American Recovery and Reinvestment                              was issued for the Austin Courthouse project, the
                                                                         contract was intended to be awarded as a CMc contract
         Act of 2009                                                     with a Guaranteed Maximum Price. This type of contract
         The American Recovery and Reinvestment Act of 2009              is initially awarded for design phase services, generally
         (Recovery Act) was enacted to create jobs and stimulate         at a firm fixed price with an option for construction phase
         the economy through a variety of measures that                  services at a Guaranteed Maximum Price. This figure is
         modernize the Nation’s infrastructure and improve               established at contract award as a ceiling price for the
         energy independence. The Recovery Act provides GSA              actual construction phase services.
         with $5.85 billion to renovate and repair Federal
         buildings to improve energy efficiency, construct land          According to the General Services Acquisition Manual, if
         ports of entry (LPOE), and acquire fuel-efficient               an unpriced option is exercised, the statutory authority
         vehicles. The Recovery Act also provides $7 million to          permitting the use of other than full and open competition
         the GSA OIG for oversight activities.                           (i.e. unusual and compelling urgency or one responsible
                                                                         offeror) needs to be documented in the project file.
         The oversight of GSA’s implementation of the Recovery           However, at the time of our review, the contract file did not
         Act requires a full range of oversight activities including     contain any documentation citing this authority, nor was
         contract, financial, and internal audits, as well as criminal   it provided when requested.
         investigations, over the long term. As part of its core
         oversight activities, the OIG performs internal audits that     In addition, since the cost of the construction phase
         evaluate GSA functions and programs for economy,                services was not evaluated under the initial award, a
         efficiency, and effectiveness; contract audits of proposals     price reasonableness determination needed to be
         as well as high value contract modifications and claims         performed prior to exercising the construction phase
         under PBS construction contracts; and investigations of         option. In this case, price reasonableness was based
         criminal activities that impact GSA programs.                   on a comparison of the total project cost according to
                                                                         the CMc contractor’s July 12, 2009 estimate of
         Recovery Act Report – Austin Courthouse Project                 $103,836,188 to the FY09 ECCA2 of $110,118,414 and
         Review of PBS’s Major Construction and                          FY10 ECCA of $104,704,779. However, these amounts
         Modernization Projects                                          were not derived from any of the cost estimates for the
         Report Number A090172/P/R/R10001, dated March 12, 2010          project and no support for these amounts was provided.
                                                                         As such, the price reasonableness was not established.
         Our review of the Austin Courthouse project found that the
         Construction Manager as Constructor (CMc) contracting           We recommended that the Commissioner of the Public
         approach was incorrectly executed. As a result, the             Buildings Service:
         construction portion of the contract was awarded as a
         $102 million “unpriced” option without a justification for      • Take action to correct the infirmities in the award of the
         using other than full and open competition. Moreover, the         option for construction phase services for the Austin
         basis for price reasonableness was not substantiated. In          Courthouse project.
         effect, exercising this phase of the contract amounted to
         a sole-source procurement without authorization and             • Perform a review of the cost of construction for the
         without a basis for the pricing.                                  Austin Courthouse project to ensure that it is fair and

         The Austin Courthouse project began prior to the
         passage of the Recovery Act. However, when Recovery             2   ECCA stands for Estimated Contract Cost at Award.


                                                                                                    October 1, 2009 – March 31, 2010 9
12063-02_SAR_rev.qxd   5/5/10   10:07 AM   Page 10




                                               Management Challenges



      American Recovery and Reinvestment Act of 2009 (continued)

        reasonable based on information that is current,             September 29, 2009. PBS management concurred with
        accurate, and complete.                                      our observations and a project plan was subsequently
                                                                     developed for the UN Plaza project.
      PBS Management disagreed with the two findings and
      concluded that the recommendations did not need to be          The full impact of this issue will be explored further in our
      followed.                                                      continuing fieldwork and reported in a future audit report.

      We do not agree with this position and have reiterated         Other Activities to Date
      our recommendations.                                           In addition to these oversight reviews, the GSA OIG has
                                                                     been performing work in coordination with the Recovery
      Audit Memorandum – Preliminary Observations on                 Accountability and Transparency Board. This work has
      PBS’s Major Construction and Modernization                     centered on two projects to date: (1) the Review of
      Projects: Project Management Plan for the 50 United            Contracts and Grants Workforce Staffing and
      Nations Plaza Federal Building                                 Qualifications issued in March 2010 and (2) the
      Audit Number A090172, dated February 25, 2010                  Recovery Act Data Quality: Errors in Recipient Reports
                                                                     Obscure Transparency issued in February 2010. On the
      Based on our preliminary observations, we believe GSA’s        Contracts and Grants Workforce Review, the GSA OIG
      PBS may have exposed GSA to unnecessary risks by not           coordinated the data collection on the GSA contracting
      developing a timely project plan for the modernization of      workforce for the Board, and for the Data Quality Review
      the 50 United Nations Plaza Federal Building (UN Plaza)        the GSA OIG examined GSA’s processes to monitor
      project in San Francisco, California. PBS identified UN        recipient reporting and verified GSA’s submission of
      Plaza as a Green Modernization project under the               non-reporting recipients.
      Recoverty Act and allocated $121,033,000 of funds to this
      effort.                                                        To assist and support the contracting personnel in their
                                                                     efforts to assess and evaluate offers from potential
      During our review we determined that PBS had not               contractors, the OIG has also provided contract audit
      developed an approved project management plan                  support to GSA contracting personnel. As of March 31,
      (management plan), formally known as a Comprehensive           2010, the OIG had issued 37 reports and memoranda on
      Project Plan for UN Plaza. A management plan presents          reviews of contractors’ proposals valued at over $155
      project goals and objectives. It also establishes the scope,   million. As part of this effort, the OIG Office of Audits
      schedule, budget, and implementation strategy. In              coordinated with the Defense Contract Audit Agency to
      addition, it describes the roles and responsibilities of all   perform 27 audits of proposals related to a major GSA
      team players and documents the plan for communication          construction project. The total proposed dollars audited
      between the Project Manager and the customer. A                were over $126 million. All of these audits have now been
      management plan should be prepared after project               completed and issued to GSA contracting personnel.
      initiation as part of the planning phase in order to
      articulate the project goals and strategies and to ensure      To assist the Agency, the OIG has provided fraud
      efficient and effective project delivery. Under PBS’s          awareness briefings related to the Recovery Act and
      routine project planning process, a project should not         performed outreach to GSA personnel as well as to
      advance past the planning stage without a project              others. As a broadened part of the Recovery Act
      management plan approved by a division director. That          oversight, the OIG Office of Audits also provided
      such a plan was not prepared for the UN Plaza project          detailed, technical instruction on how to audit
      may have exposed GSA to unnecessary project risks.             construction claims generated from Recovery Act
                                                                     projects. Further, the OIG has assembled a claims team
      We initially notified PBS of this deficiency on August 18,     to perform audits and oversight of the Recovery Act
      2009 and followed up with a formal Audit Memorandum on         construction projects. Also, the Office of Forensic


       10 Semiannual Report to the Congress
12063-02_SAR_rev.qxd   5/5/10   10:07 AM   Page 11




                                                  Management Challenges



         American Recovery and Reinvestment Act of 2009 (continued)

         Auditing conducted three reviews involving contracts           suspension or debarment of a contractor when a
         awarded under the Recovery Act and coordinated its             principal knowingly fails to timely disclose, in writing,
         efforts with the Office of Investigations. It also provides    such violations. The statute defines a covered contract to
         assistance to audits and investigations in areas such as       mean ‘‘any contract in an amount greater than $5,000,000
         data matching and analysis. Finally, in support of the         and more than 120 days in duration.’’ The final rule also
         OIG’s mission to prevent and detect fraud, waste, and          provides that the contractor’s internal control system shall
         abuse, the OIG has opened multiple investigations              be established within 90 days after contract award, unless
         related to the Recovery Act. Several of these                  the contracting officer establishes a longer time period
         investigations are ongoing.                                    (see FAR 52.203–13(c)). The internal control system is
                                                                        not required for small businesses or commercial item
         Other Initiatives                                              contracts.
         In response to recent legislative actions regarding the
                                                                        The GSA OIG put in place a website for contractor self-
         Federal Acquisition Regulation (FAR) rule that requires
                                                                        reporting and GSA’s contractors may make the required
         government contractors to disclose to agencies’ OIGs
                                                                        disclosures through this website. Further, the OIG
         credible evidence of violations of Federal criminal law
                                                                        developed internal procedures to process, evaluate, and
         under U.S.C. Title 18 or the civil False Claims Act, we
                                                                        act on the disclosures made by contractors. As
         initiated a website for contractor self reporting and
                                                                        disclosures are made, the Office of Audits, Office of
         internal procedures for evaluating such disclosures.
                                                                        Investigations, and Office of Counsel to the Inspector
                                                                        General work together examining each acknowledgment
         FAR Rule for Contractor Disclosure
                                                                        and making a determination as to what actions are
         Effective December 12, 2008, the Civilian Agency               warranted. During this period, the OIG received four
         Acquisition Council and the Defense Acquisition                disclosures. These disclosures included timecard
         Regulations Council (Councils) agreed on a final rule          mischarges, compliance failures, misuse of task order
         amending the FAR to amplify the requirements for a             funds, and overbilling errors.
         contractor code of business ethics and conduct, an
         internal control system, and disclosure to the                 In cases involving substantial contractor overpayments,
         Government of certain violations of criminal law,              the contractor’s disclosure can be made to either the
         violations of the civil False Claims Act, and significant      OIG or the GSA contracting officer. An example of a type
         overpayments. The final rule implements the Close the          of disclosure involves activities discovered as the result
         Contractor Fraud Loophole Act, Public Law 110–252,             of company mergers whereby the remaining company
         Title VI, Chapter 1.                                           performs systems reviews and uncovers a potentially
                                                                        reportable issue, such as the failure of the company no
         Under the rule, a contractor must timely disclose to the       longer existing to pass on a contractual discount to the
         relevant agency’s Office of Inspector General (OIG) in         Government. A further cause for potentially reportable
         connection with the award, performance, or closeout            activity is found in overlooking the inadvertent mixing of
         of a Government covered contract performed by the              two companies’ accounting and procedures systems
         contractor or a subcontract awarded thereunder, credible       that were in place to ensure contract compliance. The
         evidence of a violation of Federal criminal law involving      OIG will work closely with the GSA contracting officers
         fraud, conflict of interest, bribery, or gratuity violations   to insure the disclosures are reviewed fully.
         found in Title 18 of the United States Code, or a violation
         of the civil False Claims Act. The rule provides for the




                                                                                              October 1, 2009 – March 31, 2010 11
12063-02_SAR_rev.qxd   5/5/10   10:07 AM   Page 12




                                      Promoting and Protecting Integrity



      GSA is responsible for providing working space for one million Federal employees. The Agency also manages the
      transfer and disposal of excess and surplus real and personal property and operates a government-wide service and
      supply system. To meet the needs of customer agencies, GSA contracts for billions of dollars worth of equipment,
      supplies, materials, and services each year. We conduct reviews and investigations in all these areas to ensure the
      integrity of the Agency’s financial statements, programs, and operations, and that the taxpayers’ interests are
      protected. In addition to detecting problems in these GSA programs and operations, the OIG is responsible for
      initiating actions to prevent fraud, waste, and abuse and to promote economy and efficiency. When systemic issues
      are identified during investigations, they are shared with GSA management for appropriate corrective actions. During
      this period, criminal, civil, and other monetary recoveries totaled almost $415 million (see Tables 5 and 6).


      Significant Civil Actions and Criminal                       and sale of defective Zylon fiber used as the key ballistic
                                                                   material in bullet-proof vests purchased by the U.S. for
      Investigations                                               federal, state, local and tribal law enforcement agencies.
      BAE Systems Pleads Guilty to Conspiracy to
      Defraud the U.S. Government and is Ordered to Pay            Investigation leading to the settlement revealed the Itochu
      $400 Million Criminal Fine                                   companies imported the Zylon fiber on behalf of the
      On March 1, 2010, BAE Systems, PLC (BAES), pleaded           manufacturer, Toyobo Co., Ltd., of Japan, and it was
      guilty to conspiring to defraud the U.S. Government by       alleged that the companies were aware that the fiber
      impairing and impeding its lawful functions, to making       degraded quickly over time. The accelerated deterioration
      false statements about its Foreign Corrupt Practices Act     caused the protections afforded by the bullet-proof vests to
      compliance program, and violating the Arms Export            degrade to the point of being unfit for use.The government
      Control Act and International Traffic in Arms Regulations.   further alleged that Itochu personnel actively participated
      BAES was subsequently sentenced to 3 years of                in the marketing of the Zylon fiber and downplayed the
      probation and ordered to pay a $400 million criminal fine.   extent of the degradation problem.
      This fine marks one of the largest criminal fines ever
      levied as the result of efforts to combat foreign            Similarly, on February 12, 2010, Lincoln Fabrics, Ltd.
      corruption in international business and the enforcement     (Lincoln), a Canadian weaver of ballistic fabrics, and its
      of U.S. export control laws.                                 American subsidiary, also agreed to pay the U.S. $4
                                                                   million to settle a lawsuit that the Department of Justice
      This sentence is the result of a joint investigation         filed against Lincoln for violations of the False Claims Act
      conducted by the Federal Bureau of Investigation, U.S.       for their role in the weaving of Zylon fabric. Previous
      Immigration and Customs Enforcement, GSA OIG and             investigation revealed Lincoln wove ballistic Zylon fabric
                                                                   for the body armor industry and it was used in the
      the Defense Criminal Investigative Service (DCIS),
                                                                   manufacture of bulletproof vests sold by several GSA
      which revealed that BAES deliberately failed to report
                                                                   contractors, including Second Chance Body Armor, Inc.,
      commissions paid to third parties for their assistance in
                                                                   First Choice Armor, Inc. and Point Blank Body Armor,
      soliciting, promoting or otherwise securing sales of
                                                                   Inc. These vests were purchased by various federal,
      defense items.
                                                                   state, and local law enforcement agencies, which were
                                                                   partially reimbursed by the U.S. government.
      Maker of Defective Bulletproof Vests Repays $6.75
      Million for False Claims and Company Agrees to
                                                                   These settlements were the result of an ongoing
      Pay $4 Million to Settle Defective Bulletproof Vest
                                                                   investigation by the GSA, OIG of the Zylon body armor
      Lawsuit
                                                                   industry. Federal agencies assisting in this investigation
      On December 7, 2009, the Department of Justice               include the Justice Department’s Civil Division, the U.S.
      executed a $6.75 million settlement with Itochu              Attorney’s Office for the District of Columbia, the
      Corporation of Japan and its American subsidiary, Itochu     Department of Homeland Security (DHS) OIG, the
      International Inc., to resolve claims under the False        Treasury IG for Tax Administration, the DCIS, the U.S.
      Claims Act in connection with the companies’ importation     Army Criminal Investigative Command (CID), the Air


       12 Semiannual Report to the Congress
12063-02_SAR_rev.qxd   5/5/10   10:07 AM    Page 13




                                           Promoting and Protecting Integrity



         Significant Civil Actions and Criminal Investigations (continued)

         Force Office of Special Investigations, the Department          Tech Company Ordered to Pay U.S. Government
         of Energy (DOE) OIG, the U.S. Agency for International          $525,000 for False Claims
         Development OIG and the Defense Contracting Audit               On December 23, 2009, the president of Systems
         Agency (DCAA).                                                  Integration Management, Inc. (SIM), was ordered to
                                                                         pay the U.S. Government $525,000. Previously, in
         The U.S. had previously settled with five other participants    November 2006, the government alleged that SIM
         in the Zylon body armor industry for over $47 million. The      submitted false claims to GSA under multiple task
         U.S. has pending lawsuits against Toyobo Co., Honeywell,        orders administered by the GSA Federal Technology
         Inc., Second Chance Body Armor, Inc., and First Choice          Service. According to the complaint filed in the civil suit,
         Armor, Inc. Several former executives of Second Chance          SIM submitted multiple invoices to GSA that contained
         and First Choice are also named in those suits.                 inflated labor hours/cost, fraudulent "other direct costs,"
                                                                         and work that was never performed by SIM.
         $1.2 Million Settlement from GSA Contractor for
         Trade Agreement Act Violations                                  Former GSA Chief of Staff Sentenced for Making
         On September 8, 2009, the U.S. Department of Justice            False Statements and Obstruction of Justice
         executed a $1.2 million settlement agreement with GSA           On October 16, 2009, a former Chief of Staff for GSA was
         contractor, OCE North America (OCE), for alleged false          sentenced to 1 year of incarceration and 2 years of
         claims violations. OCE denied the contentions of                supervised release for federal violations stemming from
         the United States but compromised to avoid continued            his false statements and obstruction of justice during a
         litigation and its associated risks. The GSA OIG                GSA OIG investigation.
         investigation was initiated after a qui tam was filed. The
         complaint alleged that OCE made false claims and                The former Chief of Staff was previously convicted on
         used the GSA Advantage program to sell products in              June 20, 2006, on similar charges, and subsequently
         violation of the Trade Agreements Act and the pricing           sentenced to 18 months of incarceration. However, the
         requirements of the GSA contract. It was further alleged        U.S. Court of Appeals for the District of Columbia
         that OCE did not offer the government the best price and        reversed and vacated his convictions on June 17, 2008.
         that it was common practice to offer lower prices to            As a result of the ruling, he was indicted for a second
         nongovernmental customers without offering the price to         time and, on December 19, 2008, found guilty of the
         the government and/or reporting it to the contracting           charges after a jury trial.
         officer.
                                                                         The conviction stemmed from lobbyist Jack Abramoff’s
         GSA Contractor Repays $1 Million in False Claims                invitation of the (then) Chief of Staff and (then)
         Settlement                                                      Representative Robert Ney from Ohio’s 18th District on a
         On December 14, 2009, the U.S. Department of Justice            golf trip to Scotland. To date, the continuing investigation
         entered into a $1 million settlement agreement with             of Abramoff’s lobbying activities has yielded the conviction
         Johnson Controls, Inc., a GSA contractor.The settlement         of 13 lobbyists and public officials for various federal
         is the result of an investigation that was initiated based on   violations, including convictions for Ney and a former
         a qui tam complaint alleging that Johnson Controls, Inc.,       Deputy Secretary at the U.S. Department of the Interior.
         Johnson Controls Building Automation Systems, LLC,
         and Adecco USA, Inc., violated the False Claims Act by          Man Pleads Guilty to Making False Statements
         knowingly submitting, causing to be submitted, or               On March 8, 2010, the owner of Hose-Mart, Inc., was
         facilitating the submission of false and fraudulent             sentenced to 6 months of probation and ordered to pay
         documents to Federal agencies, as well as to general            an $1,800 fine after pleading guilty to Federal false
         contractors and subcontractors, for a period of several         statements violations. The sentence follows an
         years in connection with construction contracts they            investigation that was initiated after a previous GSA
         were performing.

                                                                                               October 1, 2009 – March 31, 2010 13
12063-02_SAR_rev.qxd   5/5/10   10:07 AM    Page 14




                                       Promoting and Protecting Integrity



      Significant Civil Actions and Criminal Investigations (continued)

      investigation revealed that the subject of an unrelated         Individual Sentenced for Theft of Government
      investigation (GSA Vendor BJC Sales, Inc.) admitted             Property
      that he conspired with Hose-Mart and its owner to               On November 18, 2009, an individual was sentenced
      substitute products and provide inferior products to GSA        in U.S. District Court for theft of Federal government
      under several GSA Multiple Award Schedule contracts.            property to 2 years probation and a $1,000 fine, and
      The joint DCIS and GSA OIG investigation of Hose-Mart           ordered to pay $9,033 in restitution. The investigation
      determined that the owner knowingly made a false and            was initiated when it was alleged by Department of
      material statement to the Government regarding his              Defense (DoD) investigators that a former employee of
      knowledge of the identity of the BJC subject of                 a local auto dealership may have stolen an engine from
      investigation.                                                  a GSA owned F-350 Ford truck in Arlington, Texas. An
                                                                      inspection of the GSA vehicle revealed the engine had
      Three Soldiers Sentenced for Stealing Computers                 been replaced with one that had been damaged in a
      On March 24, 2010, three U.S. Army Sergeants were               flood. The ensuing investigation revealed that the
      sentenced in Federal court for theft of Government              identification number stamped on the engine block in the
      property. The first sergeant was sentenced to serve 1           suspect’s truck matched the last eight digits of the GSA
      year, 6 months in prison, to be followed by 3 years of          truck’s Vehicle Identification Number. Ford Motor Company
      supervised release, and was ordered to pay $163,000 in          and the National Insurance Crime Bureau verified that the
      restitution. The second was sentenced to 6 months of            engine belonged to the GSA vehicle.
      home confinement, 3 years of probation, 200 hours of
      community service, and ordered to pay $10,187 in                Canadian Man Sentenced in $3 Million Fraud and
      restitution.The third was sentenced to 2 months of home         Theft Scheme
      confinement, 2 years of probation, 100 hours of                 On February 25, 2010, a Canadian man was sentenced
      community service, and was ordered to pay $12,124 in            to 4 years, 6 months of Federal imprisonment and 3
      restitution.                                                    years of supervised release. On June 29, 2009, the man
                                                                      had been convicted of wire fraud, theft of honest
      A joint investigation with Veterans Administration (VA)         services, mail fraud, and perpetrating an unlawful
      OIG, Army CID, and other agencies was initiated when it         monetary transaction after a three week trial in which the
      was reported that surplus VA computers may have been            government proved he had helped his half-brother, a
      stolen. The investigation found that the first sergeant         Federal Aviation Administration (FAA) repair technician,
      submitted false documents and provided false statements         to steal nearly $3 million in Federal government property.
      to obtain surplus VA computer equipment through the
      GSA surplus property program. Investigative surveillance        The investigation leading to this sentence was initiated
      and controlled deliveries of Government surplus                 when it was reported that the FAA repair technician had
      computers to the first sergeant determined that he              used an “activity code” not assigned to him to screen
      targeted several Government agencies and routinely sold         excess property on behalf of various Department of
      most of the Government computers to various computer            Transportation agencies. The investigation revealed that
      retailers and private individuals for his financial gain. The   the technician and his Canadian brother schemed to
      investigation led to the identification of the two other        convert the excess federal property for their personal
      sergeants who participated in the fraudulent scheme to          use and transported much of it to Canada.The technician
      obtain and sell surplus Government computers under              pled guilty on March 22, 2010, and will be sentenced on
      false pretenses. The sergeants falsely represented to           June 28, 2010.
      Government agencies that they were collecting the
      surplus equipment for a legitimate Army program.                The case was investigated by GSA OIG, IRS Criminal
      Investigative agencies were able to recover a significant       Investigations, the Department of Transportation OIG,
      number of the computers that were sold to private entities.     the Naval Criminal Investigative Service, Army CID,
                                                                      DCIS, and the FBI.

       14 Semiannual Report to the Congress
12063-02_SAR_rev.qxd   5/5/10   10:07 AM   Page 15




                                           Promoting and Protecting Integrity



         Significant Civil Actions and Criminal Investigations (continued)

         GSA Contractor Employee Sentenced for Mail Fraud               Department of Justice and the FBI to develop a list of lost
         On January 15, 2010, a Senior Project Manager for              and stolen WPA artwork, and have resulted in the recovery
         Omega Service Maintenance Corporation (OMEGA), a               of 17 WPA works of art during this reporting period.
         GSA contractor, was sentenced to 3 years supervisory
         release, 300 hours of community service, and restitution       On October 21, 2009, Swift’s Packing House, a painting
         of $15,000. The sentence is the result of a joint              from the WPA era, was received by GSA’s Fine Arts
         investigation with the U.S. Postal Service Office of           Program Office (FAP) to be restored by GSA prior to its
         Inspector General (OIG), the Port Authority of New York        loan to a museum in Connecticut. The painting, valued at
         and the New Jersey OIG, which revealed the project             approximately $800, maintains significant historical value
         manager deliberately submitted fraudulent concrete test        and was recovered after it was identified on eBay through
         results in conjunction with government construction            sales photographs containing a clearly legible WPA label.
         projects. The investigation also revealed that OMEGA           After verification as a WPA piece, the possessor was
         had received approximately $360,000 in payments from           advised of the Government’s ownership of the painting
         GSA for substandard concrete work performed in                 and voluntarily surrendered the painting to the Lyman
         conjunction with the renovation of a loading dock at the       Allyn Art Museum in New London, Connecticut.
         Mitchell H. Cohen Federal Building & U.S. Courthouse in
         Camden, New Jersey. Previously, on August 13, 2009,            On November 3, 2009, the GSA FAP executed an
         the project manger pleaded guilty to mail fraud.               agreement to loan the WPA painting Simplicity to the St.
                                                                        Louis Art Museum for public display. The painting,
         GSA Employee Demoted for Travel Card Abuse                     valued at approximately $40,000, is of significant
                                                                        historical value and was effectively returned to the U.S.
         On January 26, 2010, a GSA Leasing Specialist resigned
                                                                        Government after 37 years. The piece was recovered
         her position and was demoted from a GS-11 to a GS-9
                                                                        after the OIG learned that Simplicity was scheduled to
         Asset Management Specialist position having no
                                                                        be auctioned in Ohio. GSA subsequently authenticated
         promotion potential. Additionally, the employee’s
                                                                        the piece as a WPA work of art through its label and
         government issued travel credit card was cancelled and
                                                                        verified that it was one of the paintings entered as lost
         travel card privileges were terminated as a result of the
                                                                        or stolen in the FBI stolen art database. Upon
         personal use of a government issued travel credit card.
                                                                        notification, the auction house agreed to hold the
                                                                        painting and the FAP worked with them to find a suitable
         This investigation was initiated when it was alleged that
                                                                        location for public display.
         the employee had used an official travel card to pay for
         non-travel related purchases and travel unrelated to the
                                                                        On November 17, 2009, the GSA FAP executed an
         business of the government. During an interview, the
                                                                        agreement to loan 15 New Deal Era artworks valued at
         employee admitted to using the government travel credit
                                                                        approximately $19,000 to the Blanden Memorial Art
         card to purchase airline tickets, hotel packages and
                                                                        Museum in Fort Dodge, Iowa. This agreement updated
         vacations for herself and others.
                                                                        an outdated agreement that was signed in 1935 with the
                                                                        museum and the Federal Emergency Relief Agency.
         Works Progress Administration Artworks Recovered
                                                                        This agreement is the result of an investigation that was
         GSA is the custodian of the many works of art produced         initiated after an art enthusiast requested that GSA stop
         through the Works Progress Administration (WPA). Since         an auction by the Blanden Memorial Art Museum in Fort
         the United States commissioned countless pieces of art         Dodge, Iowa, because he suspected the auction included
         during the New Deal era, many precious historical pieces       federally-owned WPA art which should not be sold. The
         have unlawfully made their way into the marketplace and        director of the art museum identified 15 pieces that were
         collectors’ hands.The OIG continues its proactive efforts to   previously unknown to the FAP, which could find no record
         recover these historical items by monitoring art sales in an   of the 1935 loan agreement for the art. Our investigation
         effort to identify government-owned art and return it to       facilitated the execution of the new agreement.
         GSA. These efforts have been coordinated with the

                                                                                              October 1, 2009 – March 31, 2010 15
12063-02_SAR_rev.qxd   5/5/10   10:07 AM    Page 16




                                        Promoting and Protecting Integrity



      Significant Civil Actions and Criminal Investigations (continued)

      GSA Voyager Fleet Charge Card Abuse                               sentenced to 3 years of probation and 18 months of
      The GSA OIG has on ongoing proactive investigative                confinement and ordered to pay $93,338 in restitution.
      project to identify and investigate fraud associated with         The investigation revealed that 15 different GSA fuel
      the misuse of GSA-issued Voyager fleet charge cards               cards were used to make over $90,000 in fraudulent
      (VFCC). As a result of those efforts, eleven subjects             charges.
      were arrested, twelve subjects were indicted, and eleven
      subjects pleaded guilty in connection with cases arising         • On December 29, 2009, a Veterans Affairs Medical
      out of VFCC investigations.                                        Center (VAMC) Program Support employee pleaded
                                                                         guilty to theft of government property. As a result of his
      Noteworthy project accomplishments included the                    plea, he received deferred adjudication with 2 years of
      following convictions:                                             probation, 30 hours of community service, and fines.
                                                                         This sentence is the result of an investigation that was
      • On December 29, 2009, a former Department of Energy              initiated after GSA Fleet Management reported the
        employee pleaded guilty to theft and was sentenced to            suspected fraudulent use of a Wright Express fuel card
        3 years of confinement (with all but 25 days suspended),         assigned to a Government vehicle leased by the
        5 years of supervised release, and ordered to pay                VAMC in Houston, Texas. Interviews and analysis of
        $12,986 in restitution. The conviction follows a joint           surveillance videos obtained from local fuel stations
        investigation with Department of Energy OIG that                 revealed that the VA employee was making the fraudulent
        disclosed the VFCC assigned to a Government vehicle              charges.
        was making multiple, same-day purchases of gasoline
        and receiving more fuel than its tank capacity. The            • On March 10, 2010, a former secretary for Indian Child
        investigation revealed that the employee had previously          Welfare for the Ponca Tribe was sentenced to 2 years
        committed similar purchases with other vehicles as far           of probation and 104 hours of community service,
        back as October 2005.                                            and ordered to pay $9,534 in restitution. This sentence
                                                                         follows an investigation that was initiated after the OIG
      • On November 12, 2009, a former AMTRAK employee                   received information indicating the VFCC was used to
        was sentenced to three years of probation and ordered to         make several back-to-back purchases in excess of the
        pay $17,000 in restitution. This investigation was initiated     tank capacity of a government vehicle assigned to
        when it was alleged that possible fraudulent fuel                the Bureau of Indian Affairs. The evidence showed that
        purchases were being made with the VFCC for a vehicle            the former secretary and her husband used the VFCC
        assigned to the AMTRAK Automotive Group. The                     to purchase fuel for friends and family in exchange
        investigation found that from late June 2008 through             for money. Previously, the pair pleaded guilty to
        September 2008, approximately eight AMTRAK-                      embezzlement and theft violations.
        assigned VFCCs showed multiple same-day transactions
        for amounts of fuel which exceeded the vehicles' tank          • On January 26, 2010, a former VA employee was
        capacities. The total amount of the unauthorized                 sentenced to 1 year of Federal supervised release and
        transactions made with the eight VFCCs is approximately          ordered to pay restitution in the amount of $1,734 after
        $83,000.                                                         pleading guilty to theft of government property. A joint
                                                                         investigation with the VA OIG was initiated when it was
      • On November 6, 2009, a civilian contractor responsible           alleged that a GSA VFCC was being used fraudulently
        for the oversight of fleet vehicles assigned to the U.S.         and that receipts indicated that two cards assigned to
        Army Recruiting Battalion in Michigan and his brother            the VA Medical Clinic in Martinez, CA, were being
        both pleaded guilty to conspiracy to steal and convert           used to purchase food, cigarettes and drinks. The
        government property. The contractor was sentenced to             investigation disclosed that the VA employee was
        3 years of probation and 30 days of confinement and              entrusted with two GSA leased vehicles and the
        ordered to pay $93,338 in restitution. His brother was


       16 Semiannual Report to the Congress
12063-02_SAR_rev.qxd   5/5/10   10:07 AM   Page 17




                                           Promoting and Protecting Integrity



         Significant Civil Actions and Criminal Investigations (continued)

          VFCCs assigned to those vehicles. Additionally, he also       During this reporting period, the OIG made 106 referrals
          had access to the area where the vehicle keys and             for consideration of suspension/debarment to the GSA
          VFCCs were stored. The evidence showed that the VA            Office of Acquisition Policy. GSA issued 62 suspension
          employee unlawfully possessed and knowingly utilized          and debarment actions based on current and previous
          the VFCCs to purchase fuel, tobacco products, food            OIG referrals.
          and beverages for his personal use and the personal
          use of his associates.                                        Integrity Awareness
                                                                        The OIG presents Integrity Awareness Briefings
         • On December 3, 2009, a specialist with the U.S. Army
                                                                        nationwide to educate GSA employees on their
           National Guard was sentenced to 1 year of Federal
                                                                        responsibilities for the prevention of fraud and abuse and
           probation, fined $1,000 and ordered to pay restitution
                                                                        to reinforce employees’ roles in helping to ensure the
           of $224 after pleading guilty to theft of government
                                                                        integrity of Agency operations. This period, we presented
           monies for fraudulently using a VFCC. Suspicious
                                                                        34 briefings attended by 467 regional and Central Office
           transactions on this VFCC had previously led to the
                                                                        employees. These briefings explain the statutory mission
           identification of two other subjects who were also found
                                                                        of the OIG and the methods available for reporting
           to be using the card for their personal benefit. One of
                                                                        suspected instances of wrongdoing. In addition, through
           these, a U.S. Army Sergeant, was sentenced to 1 year
                                                                        case studies, the briefings make GSA employees aware
           of probation, fined $1,000 and ordered to pay
                                                                        of actual instances of fraud in GSA and other Federal
           restitution of $199 on October 1, 2009; and, on July 2,
                                                                        agencies and thus help to prevent their recurrence. GSA
           2009, the third, an Army Specialist, was sentenced
                                                                        employees are the first line of defense against fraud,
           to 1 year of probation, fined $500 and ordered to pay
                                                                        abuse, and mismanagement. They are a valuable source
           restitution of $34.
                                                                        of successful investigative information.

         Suspension and Debarment Initiative                            Hotline
         GSA has a responsibility to ascertain whether the
                                                                        The OIG Hotline provides an avenue for employees and
         people or companies it does business with are eligible
                                                                        other concerned citizens to report suspected wrongdoing.
         to participate in federally-assisted programs and
                                                                        Hotline posters located in GSA-controlled buildings
         procurements, and that they are not considered
                                                                        encourage employees to use the Hotline.We also use our
         “excluded parties.” Excluded parties are individuals
                                                                        FraudNet Hotline platform to allow Internet reporting of
         and companies debarred, suspended, proposed for
                                                                        suspected wrongdoing. During this reporting period, we
         debarment, or declared ineligible to receive contracts by
                                                                        received 1,258 Hotline contacts. Of these contacts, 248
         a Federal agency. The Federal Acquisition Regulation
                                                                        Hotline cases were initiated. In 95 of these cases, referrals
         authorizes an agency to suspend or debar individuals or
                                                                        were made to GSA program officials for review and action
         companies for the commission of any offense indicating a
                                                                        as appropriate, 47 were referred to other Federal
         lack of business integrity or business honesty that directly
                                                                        agencies for follow up, 92 were referred for OIG
         affects the present responsibility of a government
                                                                        criminal/civil investigations or audits, and 14 did not
         contractor or subcontractor.The OIG has made it a priority
                                                                        warrant further review.
         to process and forward referrals to GSA, so GSA can
         timely ensure that the government does not award
         contracts to individuals or companies that lack business
         integrity or honesty.




                                                                                               October 1, 2009 – March 31, 2010 17
12063-02_SAR_rev.qxd   5/5/10   10:07 AM   Page 18




                                      Governmentwide Policy Activities



      We regularly provide advice and assistance on governmentwide policy matters to the Agency, as well as to other
      Federal agencies and to committees of Congress. In addition, as required by the Inspector General Act of 1978, we
      review existing and proposed legislation and regulations to determine their effect on the economy and efficiency of
      the Agency’s programs and operations and on the prevention and detection of fraud and mismanagement. Because
      of the central management role of the Agency in shaping governmentwide policies and programs, most of the
      legislation and regulations reviewed invariably affect governmentwide issues in areas such as procurement, property
      management, travel, and government management and information technology systems.

      Interagency Committees and Working                           Heartland Region Field Audit Office participates in
                                                                   quarterly meetings of the Western District of Missouri
      Groups                                                       and Kansas Regional Procurement Fraud Working
      We participated in a number of interagency committees        Group meetings. The goal of the regional Working
      and working groups that address crosscutting and             Group is to detect, prevent and prosecute procurement
      governmentwide issues:                                       fraud. The meetings are chaired by Assistant United
                                                                   States Attorneys from both districts and attended by
      • Council of the Inspectors General on Integrity and         investigators, agents and auditors from various Federal
        Efficiency (CIGIE). The IG is a member of the              Government investigative branches, including Offices
        Investigations Committee, Professional Development         of Inspectors General, the Federal Bureau of
        Committee, and Homeland Security Roundtable.               Investigations, and the Department of Justice. In
                                                                   addition to improving contact between agencies and
         o Federal Audit Executive Council (FAEC)                  U.S. Attorneys Offices, these meetings have resulted in
           Contracting Committee. The Deputy Assistant             innovative methods to identify and prosecute fraud and
           Inspector General, Acquisition Programs Audit           have resulted in the development of collaborative
           Office, participates in the FAEC Contracting            cases between different Government agencies.
           Committee, created in December 2007. This
           Committee provides a forum to share information        • TeamMate Technical Support Group. Our TeamMate
           and coordinate reviews of significant contract and       Technical Support Group participates in the TeamMate
           procurement community issues of interest across          Federal Users Group and the CCH TeamMate Users
           the IG community and Federal Government. The             Group to discuss concerns and new challenges facing
           Committee also proposes the development and              TeamMate users. TeamMate is an automated audit
           recommendation of best practices to be used by           paperwork management system that strengthens the
           IGs to address contracting issues.                       audit process and increases efficiency.
      • Recovery Accountability and Transparency Board
        Working Group (Recovery Working Group). The               Legislation, Regulations, and
        GSA OIG is a participating member of the Recovery         Subpoenas
        Working Group, comprised of the 29 OIGs that are          During this reporting period the OIG reviewed legislative
        responsible for performing oversight of Recovery Act      matters and proposed regulations as well as
        funds. The Working Group is responsible for examining     commented on agency directives. We also responded to
        oversight issues that cross all of the federal agencies   requests from Congressional members on behalf of their
        that received Recovery Act funds. Further, the Working    constituents. Additionally, we issued 40 subpoenas in
        Group provides advice and makes recommendations           support of our audit and investigative work.The OIG also
        to the Recovery Funds Working Group Committee on          made substantive comments on several proposed laws
        coordinated oversight efforts that cross the federal,     and regulations.
        state, and local governments.

      • Regional Procurement Fraud Working Group. The
        Regional Inspector General for Auditing in our


       18 Semiannual Report to the Congress
12063-02_SAR_rev.qxd   5/5/10   10:07 AM   Page 19




                                           Professional Assistance Services



         Government Auditing Standards prohibit Federal audit organizations from performing certain types of management
         consulting projects because they may impair the independence of the auditors when performing subsequent audit
         work in the same area. To maintain our independence when working closely with GSA management, we carefully
         assess our services to ensure compliance with the standards. As allowed under the standards, we participate in
         Agency improvement task forces, committees, and working groups in an observer or advisory capacity.

         Task Forces, Committees, and Working                          higher level. Based on these discussions, subgroups
                                                                       were established to discuss discrete issues having to
         Groups                                                        do with particular contracts or reviews. For example, an
         The OIG provides advice and counsel to GSA while              MAS subgroup was tasked to examine the time frames
         monitoring    ongoing      Agency      initiatives. Our       necessary to ensure audit results are available in
         representatives advise management at the earliest             sufficient time to minimize the use of temporary
         possible opportunity of potential problems, help ensure       contract extensions. Another subgroup provides an
         that appropriate management controls are provided             avenue to resolve issues relating to audit reviews of
         when installing new or modifying existing Agency              MAS contacts.This subgroup also identifies FAS policy
         systems, and offer possible solutions when addressing         issues for referral to the Working Group.
         complex financial and operational issues.
                                                                      • GSA IT Governance Groups. Through collaboration
         Our direct participation with the Agency on task forces,       with the GSA Chief Information Officer, our Information
         committees, and working groups allows us to contribute         Technology Audit Office monitors the Agency’s efforts
         our expertise and advice, while improving our own              to establish a streamlined, enterprise-level IT
         familiarity with the Agency’s rapidly changing systems.        governance structure and process in which the
         We nevertheless maintain our ability to independently          responsibilities of key Services and Staff Offices, and
         audit and review programs. Our participation on task           individual positions, are clear. This includes the IT
         forces is typically as nonvoting advisory members.             Executive Council (ITEC) that reviews and makes
                                                                        decisions and recommendations on agency-wide
         Some areas in which we have been involved this period          technical issues, strategic IT planning, IT portfolio
         include:                                                       management, and enterprise architecture guidance,
                                                                        and oversees five standing committees: (1) Enterprise
         • The Multiple Award Schedule (MAS) Working                    Applications and Services Committee, (2) Enterprise
           Group. The Working Group was established as a result         Architecture Committee, (3) Enterprise Infrastructure
           of an OIG report released in August 2001 relating to         Committee, (4) Information Assurance Committee, and
           MAS contracting pricing practices. The Working Group         (5) Portfolio Management Committee.
           is currently comprised of senior level management of
           the Federal Acquisition Service (FAS) and the OIG.The
           Working Group has had several areas of focus,              Internal Evaluation
           including preaward contract reviews and MAS                • Operational Assessments. The OIG Office of
           negotiations issues. It developed guidance to MAS            Internal Evaluation and Analysis conducts operational
           contracting officers (COs) regarding the performance         assessments of OIG components and their field offices.
           and use of preaward MAS contract reviews. Further,
           the Working Group reinvigorated the process by which       • Office of Forensic Auditing. The Office of Forensic
           FAS and the OIG collaboratively select and commence          Auditing, (Forensic Auditing), employs innovative
           preaward reviews of vendors, and has built into this         strategies to assess situations in which fraud is
           process a specific mechanism for COs to request              suspected, detect fraudulent activities, and provide
           reviews of particular vendors. In 2009, the MAS              evidence that meets the standard of proof required by
           Working Group was restructured to limit participation in     criminal courts. In this regard, Forensic Auditing is an
           order to better communicate broad policy issues at a         adjunct to the traditional investigative and auditing




                                                                                            October 1, 2009 – March 31, 2010 19
12063-02_SAR_rev.qxd   5/5/10   10:07 AM   Page 20




                                       Professional Assistance Services



      Internal Evaluation (continued)

        regimens of the OIG. For example, during this reporting    such varied areas of concern as purchase card usage,
        period, Forensic Auditing continued monitoring             fleet vehicle use and charge card use, leased office
        suspicious purchase card activities. As a result, it       space for Federal employees, procurement fraud,
        referred transactions totaling $716,000 to the Office of   suspension and debarment databases, and wage rates
        Investigations for further investigation.                  on construction projects. JE has begun new analyses
                                                                   of small business data contained in the Federal
      • Statistical Support for OIG Audits and Investigations.     Procurement Data System and has continued its
        JE continued to provide assistance in scientific           examination of the Excluded Parties List System
        sampling and database analysis to the OIG auditors         (EPLS) and the timeliness of suspension/debarment
        and investigators. JE has applied statistical methods to   actions.




       20 Semiannual Report to the Congress
12063-02_SAR_rev.qxd   5/5/10    10:07 AM     Page 21




                                 Statistical Summary of OIG Accomplishments



         Audit Reports Issued                                                 well as the status of those audits as of March 31, 2010.
                                                                              There were 9 reports more than 6 months old awaiting
         The OIG issued 56 audit reports. The 56 reports
                                                                              management decisions as of March 31, 2010. Table 1
         contained financial recommendations totaling
                                                                              does not include 6 implementation reviews that were
         $170,983,064       including     $145,154,250      in
                                                                              issued during this period because they are excluded from
         recommendations that funds be put to better use and
                                                                              the management decision process.Table 1 also does not
         $25,828,814 in questioned costs. Due to GSA’s
                                                                              include 3 reports excluded from the management
         mission of negotiating contracts for government-wide
                                                                              decision process because they pertain to ongoing
         supplies and services, most of the savings from
                                                                              investigations.
         recommendations that funds be put to better use
         would be applicable to other Federal agencies.

         Management Decisions on
         Audit Reports
         Table 1 summarizes the status of the universe of audits
         requiring management decisions during this period, as




                                    Table 1. Management Decisions on OIG Audits

                                                                                           Reports with                     Total
                                                                    Number of               Financial                     Financial
                                                                     Reports            Recommendations*              Recommendations
            For which no management decision
            had been made as of 10/01/2009
             Less than six months old                                    62                       43                      $143,612,555
             Six or more months old                                       2                        2                      $ 17,552,844
            Reports issued this period                                   50                       34                      $170,983,064
            TOTAL                                                       114                       79                      $332,148,463

            For which a management decision
            was made during the reporting period
             Issued prior periods                                        55                       39                      $142,447,786
             Issued current period                                       32                       26                      $144,897,923
            TOTAL                                                        87                       65                      $287,345,709

            For which no management
            decision had been made
            as of 03/31/2010
             Less than six months old                                    18                        8                       $26,085,141
             Six or more months old                                       9                        6                       $18,717,613
            TOTAL                                                        27                       14                       $44,802,754

            *These totals include audit reports issued with both recommendations that funds be put to better use and questioned costs.




                                                                                                        October 1, 2009 – March 31, 2010 21
12063-02_SAR_rev.qxd   5/5/10   10:07 AM   Page 22




                             Statistical Summary of OIG Accomplishments



      Management Decisions on Audit Reports with Financial Recommendations
      Tables 2 and 3 present the audits identified in Table 1 as containing financial recommendations by category (funds to
      be put to better use or questioned costs).



                           Table 2. Management Decisions on OIG Audits with
                           Recommendations that Funds be Put to Better Use

                                                         Number of                                      Financial
                                                          Reports                                   Recommendations
          For which no management
          decision had been made
          as of 10/01/2009
           Less than six months old                           38                                       $139,468,608
           Six or more months old                              0                                       $          0
           Reports issued this period                         26                                       $145,154,250
           TOTAL                                              64                                       $284,622,858

          For which a management
          decision was made during
          the reporting period
            Recommendations agreed to
            by management                                     55                                       $259,464,996
            Recommendations not agreed
            to by management                                   0                                       $          0
          TOTAL                                               55                                       $259,464,996

          For which no management
          decision had been made
          as of 03/31/2010
           Less than six months old                            6                                        $24,010,910
           Six or more months old                              3                                        $ 1,146,952
          TOTAL                                                9                                        $25,157,862




       22 Semiannual Report to the Congress
12063-02_SAR_rev.qxd   5/5/10   10:07 AM   Page 23




                                Statistical Summary of OIG Accomplishments




               Table 3. Management Decisions on OIG Audits with Questioned Costs

                                                     Number of                    Questioned
                                                      Reports                       Costs
            For which no management
            decision had been made
            as of 10/01/2009
             Less than six months old                   11                        $ 4,143,947
             Six or more months old                      2                        $17,552,844
            Reports issued this period                  12                        $25,828,814
            TOTAL                                       25                        $47,525,605

            For which a management
            decision was made during
            the reporting period
              Disallowed costs                          18                        $27,880,713
              Costs not disallowed                       0                        $         0
            TOTAL                                       18                        $27,880,713

            For which no management
            decision had been made
            as of 03/31/2010
             Less than six months old                    4                        $ 2,074,231
             Six or more months old                      3                        $17,570,661
            TOTAL                                        7                        $19,644,892




                                                                  October 1, 2009 – March 31, 2010 23
12063-02_SAR_rev.qxd     5/5/10   10:07 AM   Page 24




                              Statistical Summary of OIG Accomplishments



      Investigative Workload                                                GSA employees, contractors, or private individuals doing
                                                                            business with the government.
      The OIG opened 124 investigative cases and closed 135
      cases during this period. In addition, the OIG received
                                                                            During this period, the OIG also made 31 referrals to
      and evaluated 55 complaints and allegations from
                                                                            GSA officials for information purposes only.
      sources other than the Hotline that involved GSA
      employees and programs. Based upon our analyses of
      these complaints and allegations, OIG investigations                  Actions on OIG Referrals
      were not warranted.                                                   Based on these and prior referrals, 36 cases (64
                                                                            subjects) were accepted for criminal prosecution and 15
      Referrals                                                             cases (19 subjects) were accepted for civil litigation.
                                                                            Criminal cases originating from OIG referrals resulted in
      The OIG makes criminal referrals to the Department of                 24 indictments/informations and 36 successful
      Justice or other authorities for prosecutive consideration,           prosecutions. OIG civil referrals resulted in 6 case
      and civil referrals to the Civil Division of the Department of        settlements. Based on OIG administrative referrals,
      Justice or to U.S. Attorneys for litigative consideration.The         management debarred 34 contractors/individuals,
      OIG also makes administrative referrals to GSA officials              suspended 28 contractors/individuals, and took 28
      on certain cases disclosing wrongdoing on the part of                 personnel actions against employees.




                                         Table 4. Summary of OIG Referrals

                 Type of Referral                                Cases                                     Subjects

                 Criminal                                              66                                     139
                 Civil                                                 18                                      29
                 Administrative                                        51                                     118

                 TOTAL                                             135                                        286




       24 Semiannual Report to the Congress
12063-02_SAR_rev.qxd   5/5/10    10:07 AM   Page 25




                                 Statistical Summary of OIG Accomplishments



         Monetary Results                                            of criminal and civil actions arising from OIG referrals.
         Table 5 presents the amounts of fines, penalties,
                                                                     Table 6 presents the amount of administrative recoveries
         settlements, recoveries, forfeitures, judgments, and
                                                                     and forfeitures as a result of investigative activities.
         restitutions payable to the U.S. Government as a result




                                        Table 5. Criminal and Civil Recoveries

                                                                   Criminal                     Civil

                   Fines and Penalties                       $400,013,346

                   Settlements                                                             $13,512,000

                   Recoveries                                                                     4,908

                   Forfeitures                                        3,983

                   Seizures                                           1,844

                   Restitutions                                     580,020

                   TOTAL                                     $400,599,193                  $13,516,908




                                             Table 6. Other Monetary Results

                   Administrative Recoveries                       $755,648

                   Forfeitures                                       44,234

                   TOTAL                                           $799,882




                                                                                          October 1, 2009 – March 31, 2010 25
12063-02_SAR_rev.qxd   5/5/10   10:07 AM   Page 26
12063-03_SAR-Apdx_rev.qxd   5/5/10   10:11 AM   Page 27




                                APPENDICES
12063-03_SAR-Apdx_rev.qxd   5/5/10   10:11 AM   Page 28
12063-03_SAR-Apdx_rev.qxd    5/5/10    10:11 AM    Page 29




                               Appendix I–Significant Audits from Prior Reports



         Under the Agency audit management decision process,            The recommendations involve implementing program
         the GSA Office of the Chief Financial Officer, Office of the   improvements, including the use of a broad risk-based
         Controller, is responsible for tracking the implementation     approach across contracting activities and modifying
         of audit recommendations after a management decision           the contract sampling process, the dissemination and
         has been reached. That office furnished the following          use of best practices, and pursuing focused reviews
         status information.                                            when appropriate; improving the Outcome Analysis
                                                                        Took and refining its usage to enhance quantification
         Twenty audits highlighted in prior reports to the Congress     and trend analysis of PRM results; and continuing
         have not yet been fully implemented; eighteen are being        with the current OMB A-123 implementation effort,
         implemented in accordance with currently established           integrating it with prior audit recommendations. They
         milestones, two are awaiting audit resolution.                 are scheduled for completion between July 15, 2010
                                                                        and September 15, 2010.
         Consistency in Implementing Policy
         Across Acquisition Centers                                     Performance Measurement
         Period First Reported: April 1, 2009 to September 30, 2009     Improvements for the MAS Program
                                                                        Period First Reported: April 1, 2009 to September 30, 2009
         The objectives of the audit were to determine if policy and
         related guidance for the Multiple Award Schedule (MAS)         The objective of the audit was to determine if the Federal
         Program are being implemented effectively by the               Acquisition Service (FAS) has performance measures
         Centers, and to identify best practices for use by the         for MAS contracting officers that stress the importance
         Centers. The objectives were further narrowed to focus on      of contract quality, including pricing, and if not, to identify
         pricing, including rate escalation and price adjustment.       potential performance measures FAS could implement
         The report contained four recommendations.                     to ensure that MAS contracts reflect the intent and goals
                                                                        of the Schedules program. The report contained three
         The recommendations involve developing and                     recommendations.
         implementing policy and training for acquisition personnel
         on a number of subjects, including most favored customer       Two recommendations involve the development of
         pricing, the use of cost analyses, and the use of volume       organizational measures emphasizing the importance
         discounting during negotiations; assessing the viability of    of pricing to the Schedules program, and price
         developing or establishing resources at the national           analysis for risked-based sample of proposed awards
         level to support contracting officers in all Centers; fully    or modifications for FY 2010 and future scorecards. The
         implementing FSS Acquisition letter FX-03-1; and               third recommendation centers on the establishment of
         ensuring the accuracy of contract information published in     an internal review program that can quantifiably assess
         GSA Advantage. Audit resolution is pending.                    whether MAS contracts meet requirements for quality in
                                                                        terms of compliance with laws, regulations and guidelines.
                                                                        Audit resolution is pending.
         The Procurement Management
         Review (PMR) Process
         Period First Reported: April 1, 2009 to September 30, 2009
                                                                        Unnecessary Duplication within the
                                                                        Office of General Supplies and
         The objectives of the audit were to determine (1) whether      Services (GSS)
         the PMRs are effective in identifying and communicating        Period First Reported: April 1, 2009 to September 30, 2009
         compliance issues to improve contracting officer
         performance in complying with Federal acquisition laws         The audit objective was to determine if unnecessary
         and regulations; and (2) the Chief Acquisition Officer has     duplication exists within GSS, with a specific focus on
         a mechanism for measuring the effectiveness of PMRs.           OMB’s assertion that unnecessary duplication exists
         The report contained three recommendations that have           between GSA Global Supply and MAS. The report
         not been implemented.                                          contained five recommendations that have not been
                                                                        implemented.

                                                                                                October 1, 2009 – March 31, 2010 29
12063-03_SAR-Apdx_rev.qxd    5/5/10    10:11 AM    Page 30




                            Appendix I–Significant Audits from Prior Reports



      The recommendations involve creating an accurate and         FY 2009 FISMA Review of GSA’s
      complete inventory of GSS MAS duplication; developing
      and implementing a plan regarding prior audit
                                                                   Information Technology Security
      recommendations on the 1649 process; implementing            Program
      operational and educational improvements to the              Period First Reported: April 1, 2009 to September 30, 2009
      Consolidated Schedule; issuing updated guidance on
      the 1649 process; and submitting a formal Federal            The objective of the audit was to determine if GSA
      Procurement Data System change request to resolve the        has developed, documented, and implemented an
      issue that requires GSS to award separate MAS contracts      agency-wide information security program to provide
      for small business set-asides. They are scheduled for        information security for the data and systems that
      completion between May 15, 2010 and October 15, 2010.        support the operations and assets of the Agency. The
                                                                   audit focused on five of GSA’s systems. The report
                                                                   contained four recommendations that have not been
      Implementation of GSA’s IT                                   implemented.
      Infrastructure Support Services
      Consolidation Initiative                                     The recommendations involve strengthening system
                                                                   certification and accreditation processes; working with
      Period First Reported: April 1, 2009 to September 30, 2009
                                                                   GSA Services/Staff Offices/Regions to enhance the
                                                                   security of internal applications; improving the security of
      The audit objective was to assess whether risks with
                                                                   GSA’s social media technologies; and working with
      GSA’s IT support services consolidation have
                                                                   Agency officials as appropriate to enhance security of
      been adequately mitigated. The audit focused on
                                                                   systems supported by contractors. They are scheduled for
      determining if: the GSA Infrastructure Technology
                                                                   completion between July 15, 2010 and October 15, 2010.
      Global Operations (GITGO) initiative is generating
      expected cost savings and other benefits; GSA’s
      consolidated IT Service Desk is operating effectively,       E2 Travel System Security Controls
      efficiently, and securely; and GSA and the GITGO
                                                                   Period First Reported: April 1, 2009 to September 30, 2009
      contractor are developing and implementing
      Information Technology Infrastructure Library (ITIL)
                                                                   The objective of the audit was to determine if GSA
      processes to align IT support services to customer
                                                                   has implemented security controls to effectively
      needs. The report contained eight recommendations;
                                                                   manage risks inherent with the E2 travel and financial
      five have not been implemented.
                                                                   management system, in accordance with FISMA and
                                                                   GSA’s Information Technology (IT) Security Program.
      The remaining recommendations involve the Chief
                                                                   The report contained three recommendations that
      Information Officer (CIO) addressing GITGO security
                                                                   have not been implemented.
      vulnerabilities, including those for USD infrastructure
      and remote support solution audit trains; ensuring
                                                                   The recommendations involve the Chief Financial
      that a governance body reviews and approves
                                                                   Officer working with other GSA officials to strengthen
      GITGO service level agreements; providing additional
                                                                   management, operational and technical controls to
      oversight for the adoption of the ITIL; and improving
                                                                   better manage IT security risks with E2 implementation
      infrastructure support services cost monitoring. They
                                                                   and to ensure the confidentiality, integrity, and
      are scheduled for completion between May 15, 2010
                                                                   availability of the system and the data it maintains.
      and June 15, 2010.
                                                                   They are scheduled for completion between April 15,
                                                                   2010 and August 15, 2010.




       30 Semiannual Report to the Congress
12063-03_SAR-Apdx_rev.qxd    5/5/10    10:11 AM    Page 31




                               Appendix I–Significant Audits from Prior Reports



         Enterprise Communications System                              Personal Property Management
         (ECS) Security Controls                                       Donation Program
         Period First Reported: April 1, 2009 to September 30, 2009    Period First Reported: April 1, 2009 to September 30, 2009

         The objective of the audit was to determine if GSA has        The objectives of the audit were to determine whether
         implemented security controls to effectively manage risks     the Personal Property Office was providing effective
         inherent with ECS, in accordance with FISMA and GSA’s         oversight of State Agencies for Surplus Property
         IT Security Program. The report contained three               (SASP), and whether the property not processed
         recommendations that have not been implemented.               through the internet based GSAXcess® system was
                                                                       given adequate visibility and properly allocated. The
         The recommendations involve the CIO strengthening             report contained three recommendations that have not
         management and technical controls, and monitoring             been implemented.
         processes over the Enterprise Communications System.
         In particular, they discuss certification and accreditation   The recommendations involved the Assistant
         activities; audit monitoring activities to better detect      Commissioner, Office of General Supplies and
         potential malicious activity; and to protect sensitive        Services, placing more reliance on internal GSA
         system functions and information. They are scheduled for      automated records to monitor SASP operations;
         completion between April 15, 2010 and October 15, 2010.       evaluating whether SASP review procedures can be
                                                                       simplified and carried out more frequently; limiting the
                                                                       processing of property outside the GSAXcess®
         System Security Controls Over eLease                          system whenever possible. They are scheduled for
         Period First Reported: April 1, 2009 to September 30, 2009    completion on September 15, 2010.

         The objective of the audit was to determine if GSA has
         implemented security controls to effectively manage           Management Controls over the Lease
         risks inherent with PBS’ eLease system, in accordance         Prospectus Process
         with FISMA and GSA’s IT Security Program. The report          Period First Reported: April 1, 2009 to September 30, 2009
         contained three recommendations; two have not been
         implemented.                                                  The objective of the audit was to determine if
                                                                       management controls are in place to provide reasonable
         The remaining recommendations involve the                     assurance that PBS leasing transactions adhere to
         Commissioner of PBS improving technical controls              prospectus requirements. The report contained five
         and enhancing the operational readiness of the                recommendations; four have not been implemented.
         eLease system. Specifically, the recommendations
         call for working with the Enterprise Service Center to        The remaining recommendations involve: establishing a
         improve web application and web server security;              consistent approach for evaluating leasing actions for
         establishing a process to ensure that audit records           prospectus compliance; improving communication
         for eLease are reviewed regularly for unauthorized            and coordination among the prospectus process
         activity or other security-related events, and ensuring       participants; developing controls to monitor prospectus
         that eLease procedures and staff are included in              leases after award; and removing or identifying
         contingency plan testing. They are scheduled for              superseded prospectus guidance in PBS’ internal
         completion between September 15, 2010 and October             websites. They are scheduled for completion on April
         15, 2010.                                                     15, 2010.




                                                                                               October 1, 2009 – March 31, 2010 31
12063-03_SAR-Apdx_rev.qxd    5/5/10    10:11 AM    Page 32




                            Appendix I–Significant Audits from Prior Reports



      Cost Estimates for the Los Angeles                           The remaining recommendations involve working with
                                                                   the Office of the Chief Acquisition Officer (OCAO) to
      Courthouse Project                                           develop standard requirements and deliverables for
      Period First Reported: April 1, 2009 to September 30, 2009   IT service contracts and task orders that promote
                                                                   compliance with GSA IT Security Policy and procedures;
      The objective of the audit was to address Congress’s         working with OCAO and the Office of the Chief
      request to determine if the project alternatives cost        Human Capital Officer (OCHCO) to ensure consistent
      estimates are supported and based on valid criteria,         background investigation requirements in policies,
      analysis and assumptions. The report contained one           procedures, and task orders; and expediting actions to
      recommendation that has not yet been completely              implement encryption of mobile devices and two-factor
      implemented.                                                 authentication and to work with the OCHCO to promptly
                                                                   fulfill responsibilities for implementing a comprehensive
      The remaining recommendation involves improving              breach notification policy. They are scheduled for
      PBS’s construction cost-estimating accuracy by               completion between April 15, 2010 and October 15,
      monitoring cost estimates against actual results to          2010.
      identify factors that could be enhanced. It is scheduled
      for completion on December 15, 2010.
                                                                   Audit of Reimbursable Work
      Fiscal Year 2008 EDP Management                              Authorizations
                                                                   Period First Reported: April 1, 2008 to September 30, 2008
      Recommendation Letter
      Period First Reported: October 1, 2008 to March 31, 2009     The objectives of the audit were to determine if RWAs
                                                                   are properly accounted for and whether controls
      The objective of the audit was to discuss findings,          over RWAs are adequate and effective. The report
      recommendations and suggestions for improvements in          contained two recommendations; neither has been
      internal controls and other management issues that           implemented.
      were observed during the Fiscal Year 2008 financial
      statement audit. The report contained fifty seven            The recommendations include ensuring the controls
      recommendations; one has not been implemented.               recommended by the National Team are effectively
                                                                   implemented and adhered to and that the results
      The remaining recommendation involves the Office of          achieved are monitored; and, the residual risks
      the Chief Financial Officer developing, documenting and      associated with the RWA process identified in this
      implementing an approval process for creating new and        report are incorporated into the National Team’s
      modifying existing vendor records. It is scheduled for       reengineered process, addressed by management
      completion on April 15, 2010.                                where clarifications are needed and/or disseminated
                                                                   to GSA associates as part of their overall
                                                                   training/implementation process. They are scheduled
      FY 2008 Office of Inspector General                          for completion by June 15, 2010.
      FISMA Review of GSA’s Information
      Technology Security Program                                  Improvements to the GSA Privacy Act
      Period First Reported: April 1, 2008 to September 30, 2008
                                                                   Program Are Needed to Ensure That
      The objectives of the audit were to assess the               PII is Adequately Protected
      effectiveness of controls over GSA systems and data          Period First Reported: October 1, 2007 to March 31, 2008
      and to address specific questions and reporting
      requirements identified by OMB. Four systems were            The objectives of the audit were to determine if GSA:
      reviewed, including one contractor system, to assess         manages sensitive personal information pursuant
      implementation of GSA’s IT Security Program. The             to legal and regulatory requirements, including
      report contained five recommendations; three have not        e-Government provisions for privacy controls; has
      been implemented.

       32 Semiannual Report to the Congress
12063-03_SAR-Apdx_rev.qxd    5/5/10    10:11 AM    Page 33




                               Appendix I–Significant Audits from Prior Reports



         implemented technical, managerial, and operational           The remaining recommendations involve adopting a
         privacy-related controls to effectively mitigate risks       more structured approach to reduce the number of
         inherent to Privacy Act systems of records; and, has         existing underutilized schedule contracts; establishing
         established procedures and automated mechanisms to           specific nationwide guidance related to Price Analysis
         verify control efficacy. The report contained four           Documentation Requirements and Negotiation Policies
         recommendations; one has not been implemented.               and Techniques for schedule contracts; establishing
                                                                      performance measures that evaluate CO/CS (a)
         The remaining recommendation involves ensuring that          verification of vendor disclosures related to Commercial
         the Privacy Act Program is integrated with the agency's      Sales Practice, (b) effectiveness in analyzing prices and
         security program. It is scheduled for completion by          conducting negotiations, and (c) consideration of the
         October 15, 2010.                                            field pricing assistance; and developing standardized
                                                                      procedures for the initial screening of offers. They are
                                                                      scheduled for completion between April 15, 2010 and
         Use of Inventory Management                                  February 15, 2011.
         Software, Federal Acquisition Service
         Period First Reported: October 1, 2007 to March 31, 2008
                                                                      GSA’s Electronic Contract Proposal
         The objectives of the audit were to determine whether:       and Modification System
         FAS was using the Manugistics inventory management           Period First Reported: October 1, 2006 to March 31, 2007
         software to the fullest extent possible, and if not, what
         were the reasons for inconsistent usage; and the             The objective of the audit was to determine whether
         Manugistics software could be improved to better             eOffer/eMod is realizing expected benefits and if sufficient
         manage inventory in the depots and stores. The report        security controls have been designed and implemented.
         contained seven recommendations; two have not been           The report contained four recommendations; one has not
         implemented.                                                 been implemented.

         The remaining recommendations involve the                    The remaining recommendation involves analyzing
         FAS Commissioner removing redundant inventory                usage rates and developing strategies to address the
         management functionality from the legacy systems;            causes of low usage. It is scheduled for completion by
         and conducting a cost/benefit study related to               May 15, 2010.
         implementing    improvements     to   transportation
         management information. They are scheduled for
         completion between July 15, 2010 and September 15,           Consolidation of Distribution Centers
         2012.                                                        Period First Reported: October 1, 2002 to March 31, 2003

                                                                      The objective of the audit was to examine the operations
         Multiple Award Schedule Program                              of the FSS Stock Program. The report contained two
         Contract Workload Management                                 recommendations; one has not been implemented.
         Period First Reported: April 1, 2007 to September 30, 2007
                                                                      The remaining recommendation, which requires
         The objective of the audit was to determine if FAS was       developing access to sufficient and reliable data for all
         effectively managing the workload associated with            delivery methods, is scheduled for completion by
         processing contract actions in the Schedules program.        September 15, 2013.
         The report contained ten recommendations; four have
         not been implemented.




                                                                                              October 1, 2009 – March 31, 2010 33
12063-03_SAR-Apdx_rev.qxd   5/5/10   10:11 AM   Page 34




                                      Appendix II–Audit Report Register
                                                                                                   Financial
                                                                                              Recommendations
                                                                                         Funds to        Questioned
       Date of         Audit                                                            Be Put to       (Unsupported)
       Report          Number                    Title                                  Better Use           Costs


      (Note: Because some audits pertain to contract awards or actions that have not yet been completed, the financial
      recommendations related to these reports are not listed in this Appendix.)

       PBS Internal Audits
       03/12/10        A090172         Recovery Act Report - Austin Courthouse
                                       Project Review of PBS's Major Construction
                                       and Modernization Projects Funded by the
                                       American Recovery and Reinvestment Act
                                       of 2009

       03/17/10        A080186         Limited Review of the Contract Administration
                                       of the U.S. Courthouse Project in Cape
                                       Girardeau, Missouri

       03/26/10        A100089         Implementation Review of Corrective Action
                                       Plan, Audit of Greater Chicagoland Service
                                       Center (Report Number A060125/P/5/
                                       R08004, June 4, 2008) Public Buildings
                                       Service

       03/31/10        A070216         Audit of PBS's Controls over Security of
                                       Building Information in Online Environments

       03/31/10        A100096         Implementation Review - Review of PBS's
                                       Appraisal Process for Rent Pricing, Audit
                                       Report Number A060197/P/R/R08002,
                                       January 2, 2008


       PBS Contract Audits
       10/07/09        A090148         Preaward     Review    of   Termination
                                       Settlement Proposal: GM Engineers and
                                       Associates, Contract Number GS-05P-07-
                                       GA-C-0027

       10/08/09        A090249         Report on Audit of Parts of a Firm-Fixed-Price
                                       Proposal for Architect and Engineering
                                       Services: Project Management Services,
                                       Inc., Solicitation Number GS11P08MKC0080

       10/30/09        A090111         Review of Claim: Midtown Development,
                                       L.L.C., Lease Number GS-06P-60003

       11/02/09        A090194         Review of Architect and Engineering Services
                                       Contract: Gruzen Samton Architects LLP,
                                       Contract Number GS-02P-01-DTC-0027

       34 Semiannual Report to the Congress
12063-03_SAR-Apdx_rev.qxd   5/5/10   10:11 AM   Page 35




                                         Appendix II–Audit Report Register
                                                                                                 Financial
                                                                                            Recommendations
                                                                                       Funds to        Questioned
         Date of        Audit                                                         Be Put to       (Unsupported)
         Report         Number                      Title                             Better Use           Costs


         12/16/09       A090240          Report on Audit of Direct Labor, Direct
                                         Labor Escalation, Other Direct Costs, and
                                         Labor Overhead/G&A Rates:        Zimmer
                                         Gunsul Frasca Architects LLP, Solicitation
                                         Number GS11P08MKC0080

         12/16/09       A090101          Review of a Claim: Paramount Mechanical
                                         Corp., Subcontractor to PJ Dick Inc.,
                                         Contract Number GS-11P-02-MKC-0055

         12/30/09       A090200          Preaward Review of Architect and
                                         Engineering Services Contract: Dattner
                                         Architects, Solicitation Number GS-02P-04-
                                         DTC-0031

         12/30/09       A090224          Preaward Review of A/E Services Contract:
                                         WSP Flack + Kurtz Inc., Consultant to
                                         Gruzen Samton Architects LLP, Contract
                                         Number GS-02P-01-DTC-0027

         01/26/10       A090105          Review of a Claim: Marelich Mechanical
                                         Company, Incorporated, Subcontractor to
                                         Dick Corporation/Morganti Group, a Joint
                                         Venture, Contract Number GS-09P-02-
                                         KTC-0002

         02/01/10       A080206          Examination of a Claim: Dick Corporation/
                                         Morganti Group, a Joint Venture, Contract
                                         Number GS-09P-02-KTC-0002

         02/24/10       A090216          Postaward Review of Architect/Engineering                        $1,753,518
                                         Progress Billings: Ross Drulis Cusenbery
                                         Architecture,    Incorporated,   Contract
                                         Number GS-09P-03-KTC-0091

         03/10/10       A090218          Postaward Review of Architect/Engineering                          $498,890
                                         Progress Billings: AECOM Transportation,
                                         a Division of AECOM U.S., Subcontractor to
                                         Ross Drulis Cusenbery Architecture,
                                         Incorporated, Contract Number GS-09P-
                                         03-KTC-0091

         03/17/10       A100087          Postaward Review of Architect/Engineering                        $1,116,352
                                         Progress Billings: AECOM Design, a
                                         Division of AECOM U.S., Subcontractor to
                                         Ross Drulis Cusenbery Architecture, Inc.,
                                         Contract Number GS-09P-03-KTC-0091

                                                                                      October 1, 2009 – March 31, 2010 35
12063-03_SAR-Apdx_rev.qxd   5/5/10   10:11 AM   Page 36




                                      Appendix II–Audit Report Register
                                                                                                  Financial
                                                                                             Recommendations
                                                                                        Funds to        Questioned
       Date of         Audit                                                           Be Put to       (Unsupported)
       Report          Number                    Title                                 Better Use           Costs


       03/18/10        A100041         Examination of a Claim: T&M Manufacturing,
                                       Incorporated, Subcontractor to Dick
                                       Corporation/Morganti Group, a Joint Venture,
                                       Contract Number GS-09P-02-KTC-0002



       FAS Internal Audits
       03/15/10        A090026         Review of Multiple Award Schedule Vendors’
                                       Invoicing Practices Relative to Prompt-
                                       Payment Discounts

       03/17/10        A100101         Implementation Review of the Review
                                       of Federal Supply Service Travel and
                                       Transportation Management Division's
                                       Freight Management Program, Report
                                       Number A060153/F/7/V07004, Dated May
                                       21, 2007

       03/30/10        A090018         Review of the Federal Acquisition Service
                                       Blanket    Purchase    Agreements     for
                                       Acquisition Management Support Services

       03/30/10        A100132         Implementation Review of the Federal
                                       Acquisition Service’s Alliant Ordering Guide,
                                       Report Number A090009/Q/ AP09002,
                                       Dated May 1, 2009



       FAS Contract Audits
       10/08/09        A080143         Preaward Review of Multiple Award
                                       Schedule Contract Extension: Stanley
                                       Associates, Inc., Contract Number GS-35F-
                                       5900H

       10/14/09        A090138         Preaward Review of Multiple Award
                                       Schedule Contract Extension:       Garrett
                                       Container Systems, Inc., Contract Number
                                       GS-07F-6095P

       10/19/09        A090152         Preaward Review of Multiple Award                                    $6,354
                                       Schedule Contract Extension: Cogent, Inc.,
                                       Contract Number GS-35F-0763J




       36 Semiannual Report to the Congress
12063-03_SAR-Apdx_rev.qxd   5/5/10   10:11 AM   Page 37




                                         Appendix II–Audit Report Register
                                                                                                  Financial
                                                                                             Recommendations
                                                                                        Funds to        Questioned
         Date of        Audit                                                          Be Put to       (Unsupported)
         Report         Number                      Title                              Better Use           Costs


         10/21/09       A080155          Limited Scope Postaward Review of Multiple                          $261,525
                                         Award Schedule: Cascades Technologies,
                                         Inc. for Review Period February 1, 2003 to
                                         March 31, 2008, Contract Number GS-35F-
                                         0293N

         10/23/09       A090170          Preaward Review of Multiple Award
                                         Schedule Contract Extension:   Etouch
                                         Systems Corporation, Contract Number
                                         GS-35F-0627P

         10/28/09       A090146          Review of Company-Reported Overbillings:                          $1,367,965
                                         United Rentals, Inc., Contract Number GS-
                                         06F-0068R

         10/29/09       A090124          Preaward Review of Multiple Award Schedule                            $8,080
                                         Contract Extension: Intergraph Corporation,
                                         Contract Number GS-35F-0011K

         10/30/09       A090115          Limited Scope Preaward Review of Multiple
                                         Award Schedule Contract Extension: Square
                                         One Armoring Services Company, Contract
                                         Number GS-07F-0303J

         11/04/09       A090119          Limited Scope Postaward Review of Multiple
                                         Award Schedule Contract:      Itin Scale
                                         Company, Inc., Contract Number GS-07F-
                                         9655S

         11/09/09       A090098          Postaward Review of Multiple Award                              $18,115,740
                                         Schedule Contract: Point Blank Body Armor,
                                         Inc., Contract Number GS-07F-8942D

         11/09/09       A090202          Preaward Review of Multiple Award
                                         Schedule Contract Extension: Computech,
                                         Inc., Contract Number GS-35F-0108K

         11/10/09       A090156          Preaward Review of Multiple Award
                                         Schedule Contract Extension: Irving Burton
                                         Associates, Inc., Contract Number GS-10F-
                                         0037K

         11/10/09       A090173          Preaward Review of Multiple Award
                                         Schedule Contract Extension: Accenture
                                         National Security Services, LLC, Contract
                                         GS-35F-0371N


                                                                                       October 1, 2009 – March 31, 2010 37
12063-03_SAR-Apdx_rev.qxd   5/5/10   10:11 AM   Page 38




                                      Appendix II–Audit Report Register
                                                                                               Financial
                                                                                          Recommendations
                                                                                     Funds to        Questioned
       Date of         Audit                                                        Be Put to       (Unsupported)
       Report          Number                    Title                              Better Use           Costs


       11/13/09        A090097         Preaward Review of Multiple Award
                                       Schedule Contract Extension: Compusearch
                                       Software Systems, Inc., Contract Number
                                       GS-35F-0585J

       11/17/09        A080144         Preaward Review of Multiple Award
                                       Schedule Contract Proposal: BMC Software,
                                       Inc., Solicitation Number FCIS-JB-980001-B

       12/03/09        A080120         Limited Scope Postaward Review of                             $2,488,555
                                       Multiple Award Schedule Contract Number
                                       GS-07F-0017K for the Period October 1,
                                       2004 to October 31, 2007:        Q-Matic
                                       Corporation

       12/07/09        A090157         Preaward Review of Multiple Award
                                       Schedule Contract Extension:       ICF
                                       Incorporated, LLC, Contract Number GS-
                                       10F-0124J

       12/10/09        A090159         Preaward Review of Multiple Award                                 $4,459
                                       Schedule Contract Extension:          RCF
                                       Information Systems, Inc., Contract Number
                                       35F-0613J

       12/21/09        A090189         Preaward Review of Multiple Award
                                       Schedule Contract Extension: Cascade
                                       Designs, Incorporated, Contract Number
                                       GS-07F-5451R

       01/12/10        A090209         Preaward Review of Multiple Award                                $75,077
                                       Schedule Contract Extension: Cross Match
                                       Technologies, Inc., Contract Number GS-
                                       35F-0199R

       01/26/10        A090182         Preaward Review of Multiple Award
                                       Schedule Contract Extension: National
                                       Instruments Corporation, Contract Number
                                       GS-24F-0007K

       02/01/10        A100059         Preaward Review of Multiple Award
                                       Schedule Contract Extension:       Cole
                                       Technology Corporation, Contract Number
                                       GS-10F-0226R




       38 Semiannual Report to the Congress
12063-03_SAR-Apdx_rev.qxd   5/5/10   10:11 AM   Page 39




                                         Appendix II–Audit Report Register
                                                                                                  Financial
                                                                                             Recommendations
                                                                                        Funds to        Questioned
         Date of        Audit                                                          Be Put to       (Unsupported)
         Report         Number                      Title                              Better Use           Costs


         02/02/10       A090114          Preaward Review of Multiple Award
                                         Schedule Contract Extension: Draft, Foote,
                                         Cone & Belding d/b/a/ True North
                                         Communications, Inc., Contract Number
                                         GS-23F-0037K

         02/16/10       A090257          Preaward Review of Multiple Award
                                         Schedule Contract Extension: Technical
                                         and Management Resources, Inc., Contract
                                         Number GS-35F-0142K

         02/22/10       A090179          Preaward Review of Multiple Award
                                         Schedule Contract Extension: Optimos
                                         Incorporated, Contract Number GS-35F-
                                         0051K

         02/24/10       A090198          Preaward Review of Multiple Award                                   $132,299
                                         Schedule Contract Extension: IBIS Tek,
                                         LLC, Contract Number GS-07F-5505R

         03/16/10       A090262          Preaward Review of Multiple Award
                                         Schedule Contract Extension:    Capitol
                                         Supply, Incorporated, Contract Number
                                         GS-21F-0001K

         03/22/10       A090187          Preaward Review of Multiple Award
                                         Schedule Contract Extension: B&H Foto &
                                         Electronics Corp., Contract Number GS-
                                         03F-0022R


         Other Internal Audits
         01/08/10       A090062          Audit    of    the    General     Services
                                         Administration’s Fiscal Year 2009 Financial
                                         Statements

         03/31/10       A080180          Opportunities Exist To Improve GSA's
                                         Implementation of The E2 Travel System

         03/31/10       A090126          FY 2009 Office of Inspector General
                                         Information Technology Security Audit of
                                         the Office of the Chief Financial Officer's
                                         Corporate Information Network




                                                                                       October 1, 2009 – March 31, 2010 39
12063-03_SAR-Apdx_rev.qxd   5/5/10   10:11 AM   Page 40




                                      Appendix II–Audit Report Register
                                                                                                Financial
                                                                                           Recommendations
                                                                                      Funds to        Questioned
       Date of         Audit                                                         Be Put to       (Unsupported)
       Report          Number                    Title                               Better Use           Costs


       03/31/10        A100099         Implementation Review of Alert Report on
                                       Security of GSA's Electronic Messaging
                                       Services and National Notes Infrastructure,
                                       Report Number A070180/O/T/W07001,
                                       Dated September 12, 2007


       Non-GSA Internal Audits
       03/31/10        A100098         Implementation Review of Controls Over
                                       FECA Compensation and Medical Benefits
                                       Expense, Report Number A060152/S/F/
                                       S07004, Dated June 5, 2007




       40 Semiannual Report to the Congress
12063-03_SAR-Apdx_rev.qxd   5/5/10   10:11 AM   Page 41




          Appendix III–Audit Reports over 12 Months Old, Final Agency Action Pending

         Public Law 104-106 requires the head of a Federal             In GSA, the Office of the Chief Financial Officer
         agency to complete final action on each management            (OCFO) is responsible for monitoring and tracking open
         decision required with regard to a recommendation in an       recommendations. While we continue to assist the
         Inspector General's report within 12 months after the         Agency in resolving these open items, various litigative
         date of the report. If the head of the Agency fails to        proceedings, continuing negotiations of contract proposals,
         complete final action within the 12-month period, the         and corrective actions needed to undertake complex and
         Inspector General shall identify the matter in the            phased-in implementing actions often delay timely
         semiannual report until final action is complete.             completion of the final action.

         The OCFO provided the following list of reports with action items open beyond 12 months:


         Date of         Audit
         Report          Number                                             Title

         Contract Audits
         04/30/01        A010127          Audit of Billing under Contract Number GS-06P-99-GZC-0315: DKW Construction,
                                          Inc., Contract Number GS-06P-99-GZC-0315

         10/18/01        A63630           Postaward Audit of Multiple Schedule Contract: The Presidio Corporation, Contract
                                          Number GS-00K-95-AGS-6170

         03/25/03        A030140          Limited Scope Review of Termination Claim: Science Applications International
                                          Corp., Contract Number GS-35F-4461G

         03/09/04        A030186          Postaward Audit of Multiple Award Schedule Contract: Nova Solutions, Contract
                                          Number GS-29F-0173G

         03/09/04        A040162          Price Adjustments on Multiple Award Schedule Contract: Nova Solutions, Inc.,
                                          Contract Number GS-29F-0173G

         05/10/05        A050112          Preaward Review of Multiple Award Schedule Contract Extension: Entrust, Inc.,
                                          Contract Number GS-35F-0332K

         10/12/05        A050105          Preaward Review of Multiple Award Schedule Contract Extension: BCOP Federal,
                                          Contract Number GS-14F-003K

         03/30/06        A050248          Postaward Review of Lease Costs and Pricing Data: Information Systems Support,
                                          Inc., Contract Number GS-09K-99-BHD-0006
         04/18/06        A050122          Review of Industrial Funding Fee Remittances: Fasternal Company, Contract
                                          Number GS-06F-0039K

         10/24/06        A060148          Preaward Review of Multiple Award Schedule Contract Extension: Kimball
                                          International, Contract Number GS-29F-0177G

         10/31/06        A060206          Postaward Review of Lease Costs and Pricing Data: Information Systems Support
                                          Incorporated, Contract Number GS-09K-99-BHD-0006

         04/30/07        A060245          Preaward Review of Multiple Award Schedule Contract Extension: Comstor, Division
                                          of Westcon Group N.A., Inc., Contract Number GS-35F-4389G

         08/28/07        A060196          Preaward Review of Request for Equitable Adjustment: Tigard Electric, Incorporated,
                                          Contract Number GS-10P-02-LTC-0025

         12/18/07        A070176          Preaward Review of Multiple Award Schedule Contract Extension: T-Mobile USA,
                                          Incorporated, Contract Number GS-35F-0503M


                                                                                                October 1, 2009 – March 31, 2010 41
12063-03_SAR-Apdx_rev.qxd   5/5/10   10:11 AM   Page 42




       Appendix III–Audit Reports over 12 Months Old, Final Agency Action Pending


       Date of        Audit
       Report         Number                                         Title


       04/10/08        A070168         Preaward Review of Multiple Award Schedule Contract Extension: MSC Industrial
                                       Direct Company, Inc., Contract Number GS-06F-0010N

       04/29/08        A080084         Review of Change Order Proposal for Resolution of Wage Rate: Kenmor Electrical
                                       Company, LP, Contract Number GS-07P-05-URC-5007

       05/05/08        A080107         Preaward Review of Multiple Award Schedule Contract Extension: Superior
                                       Protection Service, Inc., Contract Number GS-07F-0605N

       05/22/08        A070229         Preaward Review of Multiple Award Schedule Contract Extension: Citrix Systems,
                                       Incorporated, Contract Number GS-07F-0332N

       06/05/08        A070095         Preaward Review of Multiple Schedule Contract Extension: GTSI Corporation,
                                       Contract Number GS-35F-4120D

       06/11/08        A040224         Review of Multiple Award Schedule Contract: ADT Security Services, Inc., Contract
                                       Number GS-07F-8854D

       08/05/08        A080077         Preaward Review of Multiple Award Schedule Contract Extension: Gartner, Inc.,
                                       Contract Number GS-35F-5014H

       10/29/08        A080069         Preaward Review of Multiple Award Schedule Contract Extension: Intririon
                                       Corporation, Contract Number GS-21F-0091H
       10/29/08        A080151         Preaward Review of Multiple Award Schedule Contract Extension: SeaArk Marine,
                                       Inc., Contract Number GS-07F-0012J

       10/30/08        A080001         Review of MAS Contract: SunGard Availability Services, LP, Contract Number GS-
                                       35F-0545K
       12/12/08        A080177         Preaward Review of Multiple Award Schedule Contract Extension: Tecolote
                                       Research, Incorporated, Contract Number GS-35F-5115H

       12/16/08        A080185         Review of a Claim: Pacific Coast Steel, Contract Number GS-09P-02-KTC-0002

       12/29/08        A090042         Postaward Audit Report on Direct Costs Incurred on Trilogy Project: Computer
                                       Sciences Corporation, Contract Number GS-00T-99-ALD-0204

       12/31/08        A080191         Preaward Review of Multiple Award Schedule Contract Extension: Corporate
                                       Lodging Consultants, Inc., Contract Number GS-33F-0009P

       01/09/09        A080220         Review of a Claim: Boyett Door and Hardware, Contract Number GS-09P-02-KTC-
                                       0002

       01/20/09        A080136         Preaward Review of Multiple Award Schedule Contract Extension: Dynamic
                                       Decisions, Inc., Contract Number GS-35F-5879H

       01/28/09        A090005         Preaward Review of Multiple Award Schedule Contract Extension: Intratek
                                       Computer Incorporated, Contract Number GS-35F-0178J




       42 Semiannual Report to the Congress
12063-03_SAR-Apdx_rev.qxd   5/5/10   10:11 AM   Page 43




         Appendix III–Audit Reports over 12 Months Old, Final Agency Action Pending


         Date of        Audit
         Report         Number                                          Title


         02/04/09       A080067          Preaward Review of Multiple Award Schedule Contract Extension: Haworth, Inc.,
                                         Contract Number GS-28F-8014H

         02/05/09       A080208          Preaward Review of Multiple Award Schedule Contract Extension: System Studies
                                         and Simulation, Inc., Contract Number GS-00F-0037P

         02/12/09       A080178          Preaward Review of Multiple Award Schedule Contract Extension: Ocean Systems
                                         Engineering Corporation, Contract Number GS-35F-5278H

         02/19/09       A080200          Preaward Review of a Claim: WM. T. Spaeder Co, Inc., Contract Number GS-03P-
                                         02-CDC-0137

         03/03/09       A080085          Preaward Review of Multiple Award Schedule Contract Extension: The HON
                                         Company, Contract Number GS-28F-8047H

         03/23/09       A080212          Preaward Review of Multiple Award Schedule Contract Extension: Phillips
                                         Corporation-Federal Division, Contract Number GS-07F-7729C


         Date of        Audit                                                                            Projected Final
         Report         Number                                          Title                            Action Date

         Internal Audits
         03/18/03       A020161             Audit of the Consolidation of Distribution Center            09/15/2013
                                            Operations: Impact on Shipment Costs and Delivery
                                            Times

         03/06/07       A060149             Review of eOffer/eMod, GSA’s Electronic Contract             05/15/2010
                                            Proposal and Modification System

         07/31/07       A060190             Review of Multiple Award Schedule Program Contract           02/15/2011
                                            Workload Management

         03/21/08       A070164             Review of the Use of Inventory Management Software,          09/15/2012
                                            Federal Acquisition Service

         03/31/08       A060228             Improvements to the GSA Privacy Act Program are              10/15/2010
                                            Needed to Ensure that Personally Identifiable
                                            Information is Adequately Protected

         09/11/08       A080081             FY 2008 Office of Inspector General FISMA Review of          10/15/2010
                                            GSA’s Information Technology Security Program

         09/30/08       A060101             Audit of Reimbursable Work Authorizations                    06/15/2010

         12/18/08       A080108             Fiscal Year 2008 EDP Management Recommendation               04/15/2010
                                            Letter




                                                                                          October 1, 2009 – March 31, 2010 43
12063-03_SAR-Apdx_rev.qxd   5/5/10   10:11 AM   Page 44




                        Appendix IV–Government Contractor Audit Findings



      The National Defense Authorization Act for Fiscal Year 2008, P.L. 110-181, requires each Inspector General appointed
      under the Inspector General Act of 1978 to submit an annex on final, completed contract audit reports issued to the con-
      tracting activity that contain significant audit findings – unsupported, questioned, or disallowed costs in an amount in
      excess of $10 million, or other significant findings – as part of the Semiannual Report to the Congress. During this report-
      ing period, the OIG issued one contract audit report under this requirement. The audit was a postaward review of a mul-
      tiple award schedule contract with Point Blank Body Armor, Inc. We reviewed the contract sales during the period October
      1, 2000 through November 30, 2005, and found unreported price reductions and billing discrepancies of nearly $16.7 mil-
      lion and $1.4 million, respectively.




       44 Semiannual Report to the Congress
12063-03_SAR-Apdx_rev.qxd   5/5/10   10:11 AM   Page 45




                            Appendix V–Audits Without Management Decision



         Section 5(a)(10) of the IG Act as amended, requires a summary of each audit report issued before the commencement
         of the reporting period for which no management decision has been made by the end of the reporting period. GSA
         has a system in place to track audit reports and management decisions. Its purpose is to ensure that
         recommendations and corrective actions indicated by the OIG and agreed to by management are addressed as
         efficiently and expeditiously as possible. This period there are four OIG reports that meet this requirement.

         Review of Consistency in                                     ity, including pricing. If not, the audit team was to iden-
         Implementing Policy Across                                   tify potential performance measures FAS could imple-
                                                                      ment to ensure that MAS contracts reflect the intent and
         Acquisition Centers, dated September                         goals of the Schedules program. The report contained
         30, 2009                                                     three recommendations: (1) Ensure that the Offices of
                                                                      General Supplies & Services and Travel, Motor
         The objectives of this audit were to determine if policy     Vehicles, and Card Services develop at least one orga-
         and related guidance for the Federal Acquisition             nizational measure emphasizing the importance of pric-
         Service’s (FAS’) Multiple Award Schedule (MAS)               ing to the Schedules program for FY 2010 and future
         Program are being implemented effectively by the             scorecards, (2) Ensure that the Offices of Integrated
         Acquisition Centers and to identify best practices in use.   Technology Services; General Supplies & Services;
         The objectives were focused on MAS pricing, including        and Travel, Motor Vehicles, and Card Services portfo-
         rate escalation and price adjustment. The report con-        lios develop an organizational measure for FY 2010 and
         tained four recommendations: 1) Develop and imple-           future scorecards to evaluate price analysis for a risk-
         ment policy and training in the areas of Most Favored        based sample of proposed awards or modifications,
         Customer pricing, use of cost analysis, use of GSAM          and (3) Establish an internal review program through
         552.216-70 Economic Price Adjustment clause, sched-          the Office of Acquisition Management that will provide
         ule specific determinations of wage rate escalation, and     an adequate assessment of the extent that MAS con-
         consideration of volume discounts during negotiation;        tracts meet requirements for quality in terms of compli-
         2) Assess the viability of developing or establishing        ance with laws, regulations, and guidelines and that can
         resources to support Contracting Officers by providing       be quantitatively measured at the organizational level.
         cost/price analyses and support, particularly in the area    To reach a management decision, FAS is currently
         of professional services; 3) Fully implement FSS             modifying the proposed action plan to satisfy the
         Acquisition Letter FX-03-1 and consider assessing            report’s recommendations.
         whether control functions of the legacy Federal Supply
         Service and Federal Technology Service organizations
         have been adequately transitioned to the new FAS
         organization; and, 4) Develop and implement controls         Postaward Audit Report on Direct
         to ensure the accuracy of contract information pub-          Costs Incurred on Trilogy Project:
         lished on GSA Advantage and recover funds if potential       Computer Sciences Corporation, Task
         overcharges discussed in the report actually occurred.
         To reach a management decision, FAS is currently             Order Number T0001AJM026, Under
         modifying the proposed action plan to satisfy the            GSA Millennia Contract Number
         report’s recommendations.                                    GS00T99ALD0204, dated December
                                                                      29, 2008
         Review of Program Performance                                This audit was initiated by the GSA Federal Systems
         Measurement for Procurement, dated                           Integration and Management Center (FEDSIM) on
                                                                      behalf of the Federal Bureau of Investigation (FBI). In
         September 30, 2009                                           2001, the FBI initiated the Trilogy program to modern-
         The objective of this review was to determine if the         ize its information technology infrastructure and sys-
         Federal Acquisition Service (FAS) has performance            tems. To expedite the contracting process, the FBI
         measures for Multiple Award Schedule (MAS) contract-         entered into an interagency agreement with GSA to
         ing officers that stress the importance of contract qual-    support the FBI’s use of the FEDSIM Millennia contract


                                                                                             October 1, 2009 – March 31, 2010 45
12063-03_SAR-Apdx_rev.qxd   5/5/10   10:11 AM   Page 46




                          Appendix V–Audits Without Management Decision



      for implementation of the Trilogy program. The task         The objectives of the limited scope review were to
      order was awarded in May 2001 to Computer Sciences          determine whether Covenant had properly adminis-
      Corporation (CSC). In February 2006, the Government         tered the contract clauses, including the IFF reduction
      Accountability Office issued a report identifying ques-     clause, and, if not, to quantify any resulting overbillings.
      tionable costs billed on task orders issued under the       The report concluded that Covenant had overcharged
      Trilogy program. In response to the GAO report, an          GSA $17,817. To reach a management decision, the
      audit was conducted by the Defense Contract Audit           contracting officer will continue to assess the issues
      Agency (DCAA) to determine if any of the direct costs       raised by the audit report and the contractor.
      were unallowable, unallocable, or unreasonable and
      whether the audit results could be used as the basis to     In addition, there are five OIG reports issued before the
      pursue remedies to recoup funds and assess penalties.       commencement of the reporting period for which man-
      DCAA, in its audit of the prime contractor CSC and          agement decision was reached immediately after the
      seven subcontractors, took exception to $14.95 million      end of the reporting period.
      of the $120.8 million in direct costs incurred and billed
      under the task order. CSC and the subcontractors did        Review of Multiple Award Schedule Contract
      not concur with the majority of the costs questioned by     Number GS-07F-8854D for the Period February 1,
      DCAA. To reach a management decision, the contract-         1996 through December 31, 2006
      ing officer needs to continue assessing, with the many      Report date: 04/01/09
      parties involved, the issues raised by the contractor and
      subcontractors in their rebuttal to the DCAA audit          Review of Cost or Pricing Data: Kallidus
      report.
                                                                  Technologies, Inc.
                                                                  Report date: 07/30/09
      Limited Scope Review of Multiple                            Preaward Review of Multiple Award Schedule
      Award Schedule Contract Covenant                            Contract Extension: BTAS, Inc.
      Security Services, Ltd., Contract                           Report date: 08/06/09
      Number GS-07F-0505M, dated June
                                                                  Preaward Review of Architect/Engineering Change
      17, 2009                                                    Order Proposal: AECOM U.S., Subcontrator to
      This review was performed to quantify overbillings iden-    Ross Drulis Cusenbery Architecture, Incorporated
      tified during a preaward review of Covenant Security        Report date: 09/08/09
      Services, Ltd. (Audit Number A070188/Q/5/X08072).
      As detailed in that audit report, it was determined that    Preaward Review of Multiple Award Schedule
      Covenant had not lowered its schedule pricing in accor-     Contract Extension: TMP Worldwide Advertising
      dance with the contract modification reducing the           and Communications, LLC
      Industrial Funding Fee (IFF). Additionally, Covenant
      had included profit on its Other Direct Costs, which is     Report date: 09/24/09
      not allowable per FAR 16.601(b) and FAR 52.232-7.




       46 Semiannual Report to the Congress
12063-03_SAR-Apdx_rev.qxd   5/5/10   10:11 AM   Page 47




                                            Appendix VI–Delinquent Debts



         The GSA Office of the Chief Financial Officer provided the following information.

         The U.S. General Services Administration's (GSA)             Also, through a contract arrangement with GSA, the
         Office of the Chief Financial Officer (OCFO) has             Profit Recovery Group (PRG) continues to identify and
         continued to implement and initiate actions to improve       pursue overpayments in conjunction with GSA staff. In
         our debt collection efforts and reduce the amount of debt    addition, more aggressive actions have been taken to
         written off as uncollectible for GSA. Management             resolve past due receivables; under the Debt Collection
         continues to place a high priority on resolving delinquent   Improvement Act of 1996, delinquent receivables can be
         accounts receivable.                                         referred to Treasury after 60 days instead of 180. This
                                                                      change allows timelier referrals to Treasury for
         OCFO claims procedures have been revised to improve          offsetting.
         claims management and control. A claims database aids
         in the aging and monitoring of claims activity. Other        The accounts receivable delinquencies have been
         changes include increases in telephone follow-up             incorporated into the GSA OCFO Executive Financial
         contacts with commercial vendors, field personnel, and       Scorecard. This monthly report is distributed to senior
         OCFO managers to resolve issues. The OCFO has also           and program managers and includes a rate of
         implemented more consistent and timely delinquency           delinquency for GSA regions on receivables that are
         notices by letter and have increased efforts to identify     greater than 180 days old. The OCFO continues to
         offsets on amounts due to commercial vendors on other        monitor monthly, the monthly results of collection efforts
         contracts. The OCFO expects these administrative             using the scorecard which serves as a primary internal
         adjustments will result in faster claim resolution.          control developed by OCFO staff.



         Non-Federal Accounts Receivable

                                                       As of                        As of
                                                 September 30, 2009             March 31, 2010                Difference

              Amounts Due GSA                        $163,835,958                $183,688,761                $19,852,803

              Amounts Overdue                         $12,952,550                 $18,959,744                  $6,007,194

              Amounts Written Off                                                    $740,351




         From October 1, 2009 to March 31, 2010, the Office of        Administrative offsets have resulted in additional collec-
         Financial Policy and Operations referred $2,373,393          tions of $1,934,732. GSA also collected non-Federal
         delinquent non-Federal claims to the U.S. Department of      claims using Pre-Authorized Debits (PADS) totaling
         the Treasury for cross-servicing collection activities.      $37,248.
         Collections on non-Federal claims were $111,847,281.




                                                                                             October 1, 2009 – March 31, 2010 47
12063-03_SAR-Apdx_rev.qxd         5/5/10      10:11 AM       Page 48




                                            Appendix VII–Reporting Requirements



      The table below cross-references the reporting                                      Congress in Senate Report No. 96-829 relative to the
      requirements prescribed by the Inspector General Act                                1980 Supplemental Appropriations and Rescission Bill
      of 1978, as amended, to the specific pages where they                               and the National Defense Authorization Act is also
      are addressed. The information requested by the                                     cross-referenced to the appropriate page of the report.


       Requirement                                                                                                                                         Page

         Inspector General Act

            Section 4(a)(2) – Review of Legislation and Regulations. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18

            Section 5(a)(1) – Significant Problems, Abuses, and Deficiencies . . . . . . . . . . . . . . . . . . . . . . . . . . . 2-11

            Section 5(a)(2) – Recommendations with Respect to Significant
            Problems, Abuses, and Deficiencies . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2–11

            Section 5(a)(3) – Prior Recommendations Not Yet Implemented . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 33

            Section 5(a)(4) – Matters Referred to Prosecutive Authorities . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 24

            Sections 5(a)(5) and 6(b)(2) – Summary of Instances Where Information Was Refused . . . . . . . . . none

            Section 5(a)(6) – List of Audit Reports . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 34

            Section 5(a)(7) – Summary of Each Particularly Significant Report . . . . . . . . . . . . . . . . . . . . . . . . . 2–11

            Section 5(a)(8) – Statistical Tables on Management Decisions on Questioned Costs . . . . . . . . . . . . . 23

            Section 5(a)(9) – Statistical Tables on Management Decisions on Recommendations
            That Funds Be Put to Better Use . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 22



            Section 5(a)(10) – Summary of Audit Reports Issued Before the Commencement
            of the Reporting Period for Which No Management Decision Has Been Made . . . . . . . . . . . . . . . . . . 45

            Section 5(a)(11) – Description and Explanation for Any Significant
            Revised Management Decision . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . none

            Section 5(a)(12) – Information on Any Significant Management Decisions with Which
            the Inspector General Disagrees . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . none

         Senate Report No. 96-829

            Resolution of Audits . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21

            Delinquent Debts . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 47

         National Defense Authorization Act

            Public Law 104-106, 5 U.S.C. app. 3, § 5 note . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 41

            Public Law 110-181 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 44



       48 Semiannual Report to the Congress
12063-03_SAR-Apdx_rev.qxd      5/5/10     10:11 AM     Page 49




                                      Appendix VIII–OIG Offices and Key Officials



            Office of the Inspector General
            Inspector General, Brian D. Miller (J) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . (202) 501-0450
            Deputy Inspector General, Robert C. Erickson (JD) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . (202) 501-0450
            Director of Communications and Congressional Affairs, Dave Farley (JX) . . . . . . . . . . . . . . (202) 219-1062

            Office of Counsel to the Inspector General
            Counsel to the IG, Richard Levi (JC) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . (202) 501-1932

            Office of Internal Evaluation and Analysis
            Director, (Acting) Richard Parker (JE) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . (202) 501-1641
            Office of Forensic Auditing, Director Patricia D. Sheehan (JEF) . . . . . . . . . . . . . . . . . . . . . . (202) 273-4989

            Office of Audits
            Assistant IG for Auditing, Theodore R. Stehney (JA). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . (202) 501-0374
            Principal Deputy Assistant IG for Auditing, Regina M. O’Brien (JAD) . . . . . . . . . . . . . . . . . . (202) 501-0374
            Director, Audit Planning, Policy, and Operations Staff, Lisa Blanchard (JAO) . . . . . . . . . . . (202) 501-4865
            Director, Administration and Data Systems Staff, Thomas P. Short (JAS) . . . . . . . . . . . . . . (202) 501-1366
            Director, Special Projects Office, Paul J. Malatino (JA) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . (202) 208-0021

            Deputy Assistant Inspectors General for Auditing
            Information Technology Audit Office, Gwendolyn A. McGowan (JA-T) . . . . . . . . . . . . . . . . (703) 308-1223
            Real Property Audit Office, Rolando N. Goco (JA-R) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . (202) 501-2322
            Finance & Administrative Audit Office, Jeffrey C. Womack (JA-F) . . . . . . . . . . . . . . . . . . . . (202) 501-0006
            Acquisition Programs Audit Office, Kenneth L. Crompton (JA-A) . . . . . . . . . . . . . . . . . . . . . (703) 603-0189
            Contract Audit Office, James M. Corcoran (JA-C) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . (215) 446-4846

            Regional Inspectors General for Auditing
            National Capital Region Field Office, Barbara E. Bouldin (JA-W) . . . . . . . . . . . . . . . . . . . . . (202) 708-5340
            Northeast and Caribbean Field Office, Howard R. Schenker (JA-2) . . . . . . . . . . . . . . . . . . . (212) 264-8620
            Mid-Atlantic Field Office, Glenn D. Merski (JA-3) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . (215) 446-4840
            Southeast Sunbelt Field Office, James D. Duerre (JA-4) . . . . . . . . . . . . . . . . . . . . . . . . . . . (404) 331-5125
            Great Lakes Field Office, David K. Stone (JA-5) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . (312) 353-7781
            The Heartland Field Office, John F. Walsh (JA-6) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . (816) 926-7052
            Greater Southwest Field Office, Rodney J. Hansen (JA-7) . . . . . . . . . . . . . . . . . . . . . . . . . . (817) 978-2571
            Pacific Rim Field Office, James P. Hayes (JA-9). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . (415) 522-2744


                                                                                                                October 1, 2009 – March 31, 2010 49
12063-03_SAR-Apdx_rev.qxd      5/5/10    10:11 AM     Page 50




                                  Appendix VIII–OIG Offices and Key Officials



         Office of Investigations
         Assistant IG for Investigations, Gregory G. Rowe (JI) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . (202) 501-1397
         Deputy Assistant IG for Investigations, Geoffrey A. Cherrington (JID) . . . . . . . . . . . . . . . . . (202) 501-1397
         Director, Investigations Operations Division, Gerald R. Garren (JIB) . . . . . . . . . . . . . . . . . . (202) 501-4583

         Special Agents in Charge (SAC)
         Mid-Atlantic Regional Office, SAC Christopher P. Cherry (JI-W). . . . . . . . . . . . . . . . . . . . . . (202) 252-0008
           Philadelphia Resident Office, SAC James E. Adams (JI-3) . . . . . . . . . . . . . . . . . . . . . . . . (215) 861-3550
         Northeast and Caribbean Regional Office, SAC Daniel J. Walsh (JI-2) . . . . . . . . . . . . . . . . (212) 264-7300
           Boston Resident Office, SAC Luis A. Hernandez (JI-1) . . . . . . . . . . . . . . . . . . . . . . . . . . . (617) 565-6820
         Southeast Regional Office, SAC Lee P. Quintyne (JI-4) . . . . . . . . . . . . . . . . . . . . . . . . . . . . (404) 331-5126
           Miami Resident Office, SA Dietrich Bohmer (JI-4M). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . (954) 356-6993
         Central Regional Office, SAC Stuart G. Berman (JI-5) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . (312) 353-7779
         Mid-West Regional Office, SAC John F. Kolze (JI-6) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . (816) 926-7214
           Denver Resident Office, SA Christopher C. Hamblen (JI-8) . . . . . . . . . . . . . . . . . . . . . . . . (303) 236-5072
         Southwest Regional Office, SAC Paul W. Walton (JI-7) . . . . . . . . . . . . . . . . . . . . . . . . . . . . (817) 978-2589
         Western Regional Office, SAC Bryan D. Denny (JI-9). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . (415) 522-2755
           Los Angeles Resident Office, SA Tony Wu (JI-9L) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . (949) 360-2214
         Northwest Regional Office, SAC Terry J. Pfeifer (JI-10) . . . . . . . . . . . . . . . . . . . . . . . . . . . . (253) 931-7654

         Office of Administration
         Assistant IG for Administration, Carolyn Presley-Doss (JP) . . . . . . . . . . . . . . . . . . . . . . . . . (202) 501-4638
         Budget, Planning, and Financial Management Division,
          Director (Acting) Suzanne Melnick (JPB) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . (202) 501-2352
         Human Resources Division, Director, Vacant (JPH) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . (202) 501-0360
         Information Technology Division, Director Michael McLaughlin (JPM) . . . . . . . . . . . . . . . . . (202) 219-2319
         Facilities Branch, Team Leader Carol Mulvaney (JPF) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . (202) 501-3119
         Contracts Branch, Team Leader Myra R. Hayes (JPC). . . . . . . . . . . . . . . . . . . . . . . . . . . . . (202) 501-2887




       50 Semiannual Report to the Congress
12063-03_SAR-Apdx_rev.qxd   5/5/10   10:11 AM   Page 51




                                                          Notes




                                                                  October 1, 2009 – March 31, 2010 51
12063-03_SAR-Apdx_rev.qxd   5/5/10   10:11 AM   Page 52




                                                          Notes




       52 Semiannual Report to the Congress
12063-03_SAR-Apdx_rev.qxd   5/5/10   10:11 AM   Page 53




                                                          Notes




                                                                  October 1, 2009 – March 31, 2010 53
12063-03_SAR-Apdx_rev.qxd   5/5/10   10:11 AM   Page 54




                                                          Notes




       54 Semiannual Report to the Congress
12063-00_Covers.qxd   5/5/10   10:05 AM   Page C3




                               Make
                               like
                               it’s
                               your
                               money!
                               It is.
                               To report suspected waste, fraud, abuse, or
                               mismanagement in GSA, call your


                               Inspector General’s Hotline
                               Toll-free 1-800-424-5210
                               Washington, DC metropolitan area
                               (202) 501-1780

                               or write: GSA, IG, Hotline Officer
                                         Washington, DC 20405

                               or access the Web: www.gsaig.gov/hotline.htm

                               Office of Inspector General
                               U.S. General Services Administration
12063-00_Covers.qxd   5/5/10   10:05 AM   Page C4




         Office of Inspector General
         U.S. General Services Administration
         1800 F Street, NW
         Washington, DC 20405
         http://www.gsaig.gov
